<html>
<title> - DEVELOPMENTS IN THE WESTERN BALKANS AND POLICY RESPONSES</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
        DEVELOPMENTS IN THE WESTERN BALKANS AND POLICY RESPONSES

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 5, 2014

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                            [CSCE 113-2-10]
                            
                            
                            
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           
                            
                            


                   Available via http://www.csce.gov
                   
                   
                   
                             __________
                             
                             
                             
                            
                          U.S. GOVERNMENT PUBLISHING OFFICE
     92-427 PDF                 WASHINGTON : 2015               
___________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001 
                 
                 
          
                 
                 
                 
                 

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               SENATE

                                                    HOUSE

BENJAMIN L. CARDIN, Maryland,        CHRISTOPHER H. SMITH, New Jersey, 
 Chairman                               Co-Chairman
SHELDON WHITEHOUSE, Rhode Island     JOSEPH R. PITTS, Pennsylvania
TOM UDALL, New Mexico                ROBERT B. ADERHOLT, Alabama
JEANNE SHAHEEN, New Hampshire        PHIL GINGREY, Georgia
RICHARD BLUMENTHAL, Connecticut      MICHAEL C. BURGESS, Texas
ROGER F. WICKER, Mississippi         ALCEE L. HASTINGS, Florida
SAXBY CHAMBLISS, Georgia             LOUISE McINTOSH SLAUGHTER,
JOHN BOOZMAN, Arkansas               New York
                                     MIKE McINTYRE, North Carolina
                                     STEVE COHEN, Tennessee
                                     
                     
                                     

                     EXECUTIVE BRANCH COMMISSIONERS

                          Department of State
                         Department of Defense
                         Department of Commerce

                                  (ii)
                                  
                                  


        DEVELOPMENTS IN THE WESTERN BALKANS AND POLICY RESPONSES

                              ----------                              

                             March 5, 2014
                              COMMISSIONER

                                                                   Page
Hon. Benjamin L. Cardin, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1

                                MEMBERS

Hon. Eliot L. Engel, a Member of Congress from the State of New 
  York...........................................................    10
Hon. Adam Kinzinger, a Member of Congress from the State of 
  Illinois.......................................................    13

                               WITNESSES

Hoyt Yee, Deputy Assistant Secretary for European and Eurasian 
  Affairs, U.S. Department of State..............................     3
Tanja Fajon, Member (Slovenia), European Parliament..............    17
Kurt Volker, Executive Director, McCain Institute for 
  International Leadership.......................................    20

                               APPENDICES

Prepared statement of Hon. Benjamin L. Cardin....................    27
Prepared statement of Hoyt Yee...................................    28
Prepared statement of Tanja Fajon................................    33
Prepared statement of Kurt Volker................................    36

                                 (iii)


        DEVELOPMENTS IN THE WESTERN BALKANS AND POLICY RESPONSES

                              ----------                              


                             March 5, 2014

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 10 a.m. in room 106, Dirksen Senate 
Office Building, Washington, DC, Hon. Benjamin L. Cardin, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioner present: Hon. Benjamin L. Cardin, Chairman, 
Commission on Security and Cooperation in Europe.
    Members present: Hon. Eliot L. Engel, a Member of Congress 
from the State of New York; and Hon. Adam Kinzinger, a Member 
of Congress from the State of Illinois.
    Witnesses present: Hoyt Yee, Deputy Assistant Secretary for 
European and Eurasian Affairs, U.S. Department of State; Tanja 
Fajon, Member (Slovenia), European Parliament; and Kurt Volker, 
Former U.S. Ambassador to NATO, Executive Director, McCain 
Institute for International Leadership.

 HON. BENJAMIN L. CARDIN, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cardin. Good morning. Let me welcome you all to this 
hearing of the Helsinki Commission. We thank you all for being 
here. Today's hearing is on the Western Balkans. But I think I 
need to start by at least to acknowledging the extremely 
serious situation that currently exists in Ukraine. It's very 
dangerous. Russia's actions violate its OSCE obligations and 
its obligations under other international organizations. It's a 
concern to all of us. Russia's announced concern about the 
Russian ethnic groups within the Crimea could easily be 
resolved by allowing the OSCE mission which is already 
scheduled to provide some assistance to Ukraine full access to 
Crimea. It is clearly aggression on the Russian part that is 
causing a problem not just in Ukraine but the entire region. So 
it's a matter of great interest to all of us.
    This Commission will continue to do everything it can to 
use all the tools that we have available to help the people of 
Ukraine and continue to support the legitimate government of 
Ukraine from the outside influence of Russia. And I know that 
also expresses the sentiments of the members of Congress and 
the administration.
    As I said, today's hearing is on the Western Balkans. This 
Commission has had a longstanding priority in the Western 
Balkans. We've had numerous hearings since the breakup of 
Yugoslavia and the wars of the 1990s. The specific countries 
have been subject to hearings before this Commission.
    And today, we're doing a regional hearing so that we can 
look at all the countries in the Western Balkans and the 
progress that they are making. I think it's fair to say that 
there is a common desire among the countries in the Western 
Balkans for integration into Europe and many into NATO. Only 
Croatia has achieved both EU status and NATO membership. So 
this is an area of great interest to the United States.
    And while the Western Balkans is no longer the setting for 
violent conflict that it was two decades ago, we have had to 
devote considerable resources--financial, diplomatic and 
military --to restore peace and to encourage the democratic and 
other reforms necessary to sustain it. That job is not yet 
done. We still have work to do in the Western Balkans. Having 
accomplished so much, we need to see the task of a stable, 
democratic and fully integrated Western Balkans completed.
    These countries have also demonstrated a willingness to 
contribute to peace operations globally and if they are not 
already, they should soon be our newest allies in a stronger 
NATO alliance. It is my view, at least, that their membership 
in NATO, if they choose to join, enhances our own security. And 
I hope we'll have a chance during this hearing to talk about 
the role that NATO is playing and EU is playing in regards to 
progress in the Western Balkans.
    In the past year, we have been particularly encouraged by 
Croatia's joining the European Union, the progress leading to 
the normalization of relations between Serbia and Kosovo, the 
beginning of negotiations for Serbia's EU accession, a smooth 
political transition in Albania that will hopefully pave the 
way for that country to begin soon its negotiations as well and 
Montenegro's ongoing progress towards both NATO and EU 
membership. Kosovo has just celebrated six years of independent 
statehood. It still has a long way to go and must confront some 
undoubtedly major obstacles along the way but has demonstrated 
a very welcome commitment to moving forward.
    While I am encouraged by these developments, we continue to 
worry that progress in the two most multiethnic states in the 
region--Bosnia-Herzegovina and Macedonia--has stalled. In 
Bosnia, we have seen for some time that the political structure 
created by the Dayton Agreement with their emphasis on ethnic 
balances rather than good governance has become outdated, 
undemocratic and divisive. But we are now seeing the 
implications of trying to maintain the status quo in the form 
of popular unrest and a public demand for greater 
accountability. Macedonia, which has made considerable strides 
in its desire to join both NATO and the EU, today struggles to 
maintain its democratic credentials and internal cohesive while 
Greece's dispute with its name has put its aspirations 
effectively on hold.
    Then there are issues that pervade the region--official 
corruption, trafficking in persons, the plight of the Roma, 
attacks on journalists and control of the media--which continue 
to be of concern. Many wounds of the past, wounds in the form 
of missing persons and unpunished war crimes, remain open and 
cannot be left unattended.
    Several countries in the region will hold elections this 
year. The conditions for free and fair contests could use 
further improvement at least in some of these countries. The 
Helsinki Commission emphasizes the need for governments to 
implement the commitments they have undertaken in the OSCE, 
especially those relating to human rights and democratic 
development. And I hope we focus on that here at this hearing.
    At the same time, given the tremendous role and influence 
the United States and Europe have in the region, we cannot 
ignore our own policies and whether they are actually 
encouraging the progress we expect. We need to look at whether 
mere promises of NATO and EU enlargement at some time in the 
future are sufficient leverage for change and what we can do in 
the meantime to keep these countries on track.
    I want to welcome all of our witnesses today and thank them 
very much for their participation in hearing. Our first panel 
today is represented by Deputy Assistant Secretary of State 
Hoyt Yee from the Bureau of European and Eurasian Affairs. He 
is a career foreign service officer with service in the Balkans 
and at NATO and became deputy assistant secretary in September 
of 2013. As the deputy chief of mission at the U.S. embassy in 
Zagreb, he helped facilitate the Helsinki Commission's visit to 
Croatia to attend a meeting of the OSCE Parliamentary Assembly 
in 2011. We're grateful for that. I'm glad that we are 
continuing to work together and we look forward to your 
testimony.

HOYT YEE, DEPUTY ASSISTANT SECRETARY FOR EUROPEAN AND EURASIAN 
               AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Yee. Thank you, Mr. Chairman. I'd like to begin by 
thanking you and also to join you in your expression of concern 
for the situation in Ukraine as well as solidarity with the 
people and legitimate government of Ukraine, which I think the 
situation underscores the importance of continued U.S. and 
European, NATO efforts to strengthen peace and stability and 
security in Europe, including through integration with the 
Western Balkans, which brings me to my testimony.
    Mr. Chairman and distinguished commissioners, thank you for 
inviting me to testify before the Helsinki Commission, which 
for nearly 40 years has played a vital role in fostering 
democracy, human rights and security across Europe and beyond. 
Given your keen interest in the Western Balkans, I am 
particularly honored to provide an assessment of the region's 
prospects for Euro-Atlantic integration and overall democratic 
development. I look forward to discussing how we and our 
European partners can best encourage further steps along that 
path.
    The appeal of EU and NATO membership has been a positive 
force for the political and economic transformation of the 
Western Balkans. I'm pleased to say, as you note, Mr. Chairman, 
we have some successes to report. In the past year, Croatia 
became the 28th member of the European Union. Montenegro 
progressed towards EU accession. Albania had the best 
democratic transition in that country's history.
    And perhaps most remarkably, Serbia and Kosovo signed a 
historic agreement to normalize relations, a move that has 
spurred the European Council to begin negotiating a 
stabilization and association agreement with Pristina in 
October and to open EU accession talks with Belgrade in 
January. These advancements and other positive developments in 
the region are especially encouraging because they are in large 
part a result of sustained American engagement and assistance.
    For more than two decades, the desire to support the 
aspirations of the Western Balkan states to integrate into 
Euro-Atlantic institutions has been the animating force behind 
U.S. engagement in the region. This has been a top policy 
objective of Republican and Democratic administrations alike 
because it is the best means of ensuring long-term peace, 
stability and prosperity in a region that is a critical part of 
Europe. As impressive as the recent successes have been, they 
do not obscure the many serious challenges the region still 
faces, challenges that must be overcome before Euro-
Atlantic aspirations can be fully realized.
    Progress comes most rapidly when political leaders and 
other actors break loose from how things were done in the past. 
We saw this in Croatia where successive governments remain 
steadfastly committed to the goal of EU membership. The payoff 
came last July when Croatia became the newest EU member, 
demonstrating to the entire region that hard work and 
compromise brings results. We're greatly encouraged by the 
ongoing dialogue between Serbia and Kosovo.
    This EU-facilitated effort created a space in which 
Belgrade and Pristina tackled the seemingly intractable 
differences that had prevented them from moving forward on 
their respective European integration paths. Last April, they 
produced a landmark agreement on principles for normalizing 
relations between the two countries. Full implementation of the 
agreement will not be easy. And the United States must remain 
engaged with Pristina, Belgrade and the European Union to 
ensure progress continues.
    Both sides will face numerous politically difficult 
decisions in the coming years. We can expect to see some 
backpedaling and intransigence. However, I'm confident that 
Serbia and Kosovo will remain on this path because it is 
inseparable from their aspirations for EU membership.
    Domestically, Serbia's 2012 election produced a coalition 
government that committed itself to reforms and to growing 
relationships with the European Union and the United States. As 
Serbia heads into early elections March 16th, we hope the next 
government will have a mandate to tackle the important domestic 
reforms necessary to invigorate Serbia's labor market, business 
climate and economy.
    With Kosovo, we remain focused on helping it strengthen its 
multiethnic democratic institutions. This includes advancing 
reforms called for under the EU's stabilization and association 
process, the measured development of its security sector, 
expanding recognitions worldwide and sustaining cooperation 
with the EULEX mission including its investigation into 
allegations of organ trafficking and other serious crimes.
    Albania has also enjoyed a year of progress, highlighted by 
the successful conduct of last June's parliamentary elections 
and the smooth democratic transition that followed. While 
Albania is already a NATO ally, much work lies ahead on its EU 
path.
    In December, the European Council deferred granting Albania 
candidate status, calling for progress in the fight against 
organized crime and corruption. The European Council will 
review Albania's application in June and we are encouraging the 
government and opposition in Albania to work together and to 
achieve results in order to strengthen the case for positive 
decision.
    Montenegro, which began EU accession talks last June, 
recently opened EU chapters addressing the rule of law, 
judicial transparency and corruption. NATO membership is a 
further goal. Montenegro needs to improve its efforts in such 
areas as defense and security sector reforms and in bolstering 
public support for NATO membership. The prime minister and 
other officials assured me during a recent visit that they are 
working to do so.
    Unfortunately, progress in the region is not universal. 
Macedonia's integration into the EU and NATO remains vital for 
lasting peace and stability in the region. However, the name 
dispute with Athens continues to stymie progress toward that 
goal. Both sides in that dispute should be motivated by the 
desire to seek a solution that ensures the democratic and 
prosperous development of the Balkan neighborhood.
    We are deeply disappointed that the elected leaders in 
Bosnia and Herzegovina have not fulfilled the basic conditions 
for EU and NATO accession. As a result of their focus on 
narrow, short-term interests, the longer term welfare of the 
people they were elected to represent has suffered. Recent 
protests that swept the country are expressions of citizens' 
frustration. Citizens want to see economic improvement and the 
building of a stable, multiethnic democracy. The outbreak of 
popular protest underscores the need for the international 
community to review its engagement with Bosnia-Herzegovina. 
Voters should take their frustrations to the ballot box in 
October and choose candidates who are serious about breaking 
the political logjam.
    Official corruption is a daily fact of life across the 
region and it is preventing democratic and economic reforms 
from taking firm root. Tackling this pervasive problem is a 
first step toward meeting the standards of EU and NATO 
membership. But that should not be the sole incentive. 
Combating corruption and organized crime is vital and must be 
pursued vigorously in its own right.
    Realizing the full democratic and economic potential of the 
region is also predicated on the existence of a free press. And 
this too is a goal that should be pursued regardless of EU and 
NATO requirements. Many countries can boast a vibrant and 
diverse media. But limitations on media freedom, often through 
direct intimidation, are still a problem and in some countries 
a growing problem. Some progress is being made. In January, two 
former members of Serbia's security forces were arrested for 
the murder of Slavko CCuruvija, a courageous journalist who was 
killed in 1999, not long after testifying before this 
Commission, for challenging the Milosevic regime. However, the 
recent series of attacks against journalists and media outlets 
in Montenegro and the drop in Macedonia's media freedom rating 
by respected international NGOs underscore the need for more 
reform-minded action.
    A further challenge I'd like to raise is the treatment of 
minority populations. Given the region's long history of 
interethnic tensions and conflict, we warmly welcome 
initiatives like the opening of a Serbian language school in 
the village of Hamel, Albania. Greater strides however must be 
made to foster a mindset of tolerance for persons belonging to 
national minorities.
    And of all the region's ethnic minorities, none is more 
vulnerable than the Roma. Roma experience discrimination and 
violence and frequently live in abject poverty. We will 
continue to support Western Balkan countries as they implement 
the reforms needed to fully join the Euro-Atlantic community 
and tackle the myriad challenges they face in improving human 
rights, providing new opportunities for growth and development 
and building multiethnic democracies. But it should not--it 
should be clear to all that the responsibility lies with the 
elected leaders of the region to adhere to the path of reform 
and integration and with civil societies of the region to hold 
their governments accountable when they stray from that path or 
stumble along the way. Thank you again for this opportunity. I 
welcome any questions you might have.
    Mr. Cardin. Mr. Yee, thank you very much for that very 
comprehensive analysis on the countries in the Western Balkans. 
You point out in every case it's in the U.S. interest for full 
integration, not only in Europe, the EU, but also in NATO. You 
mentioned Montenegro. You mentioned others that are on path.
    It was the 2012 meeting in Chicago that Secretary Clinton 
expressed her desire that the next NATO meeting would be 
considering expansion of NATO. There's a meeting coming up, I 
believe in September, in the United Kingdom. What is our 
position and what is the sentiment among our NATO allies on 
further expansion and time schedules for further expansion 
within NATO?
    Mr. Yee. Thank you, Mr. Chairman. As you point out, there 
is a NATO summit coming up in Cardiff, United Kingdom, in 
September. And one of the issues that will undoubtedly be 
discussed is the future of the alliance, including future 
membership by countries aspiring to join NATO.
    It is a policy of the United States and other allies that 
NATO's door remains open and that countries that meet the 
requirements to join should be included, should be invited to 
join. There are two countries at least that are very interested 
in joining and have been working very hard to reach the 
requirements necessary in order to achieve an invitation--
Montenegro and Macedonia.
    As you mentioned--and as I mentioned in opening remarks--
Macedonia is currently blocked by its dispute with Athens over 
its name. In the last NATO summit, there was an agreement among 
the NATO allies that an invitation to join the alliance would 
be issued to Macedonia when a mutually acceptable solution to 
the name issue was found. And we hope that that will still be 
the case. We hope that Macedonia and Greece can reach an 
agreement on a name. We're actively encouraging both capitals, 
both governments to work towards that end.
    We are to the extent possible providing ideas. And it is 
ultimately up to those two governments to reach an agreement. 
In Montenegro's case, Montenegro has been very active, 
including through the Membership Action Plan process in 
preparing itself and making the reforms necessary in order to 
convince the allies that it is ready to join. It still has work 
to do.
    And what we've told the Montenegrins is that while the door 
is open, time is running short between now and September, 
between the time now and when allies will need to make their 
decisions. Montenegro needs to make progress in its fight 
against corruption and organized crime. It needs to reform its 
security services, its intelligence services. And it needs to 
make the case that its public--its public opinion supports NATO 
membership.
    Public support for NATO membership in Montenegro now 
according to latest polls is quite low. NATO allies would like 
to see that it's not only the government but it's the citizens 
of Montenegro who are interested in joining NATO. So if 
Montenegro can make significant progress in those areas with 
the short time remaining, I think there will be great interest 
in the allies in assessing that progress and in helping 
Montenegro move forward towards its goal of joining NATO.
    Mr. Cardin. I understand the U.S. position. But your 
response is encouraging. You're saying that you believe our 
allies in NATO are prepared to move forward with expansion if 
the conditions are met.
    Mr. Yee. Without speaking for the other allies, Mr. 
Chairman, I think that all the allies have said repeatedly that 
NATO's open door policy is real. It's not--it's not an 
illusion. It's not a false hope for countries that aspire to 
join. The countries of the alliance understand and have been 
working with Montenegro in its membership action plan process 
to prepare it for joining.
    No one has told Montenegro that it's impossible to join. 
We've all emphasized that the time is very short. The remaining 
months do not leave a lot of time for Montenegro to do what 
remains to be done. But we're still saying, and have not heard 
any country contradict this, that the door is open. The door 
may be open only a small crack at this point. But it is still 
possible.
    Mr. Cardin. Thank you. You started your comments and I 
started my opening statement noting a lot of progress that have 
been made in the Western Balkans, which is real and we've seen 
a tremendous change from the wars of the 1990s. In Serbia, 
there appears to be a genuine interest to fully integrate into 
Europe, which is certainly very encouraging.
    And you point out that there is now active discussions 
taking place between Serbia and Kosovo. Could you just expand a 
little bit more as to how you see Serbia's interest in joining 
EU affecting Kosovo, perhaps Bosnia, and resolving those issues 
and whether it's likely that other countries in EU that have 
not recognized Kosovo may now formally recognize that 
independent country?
    Mr. Yee. Thank you, Mr. Chairman. I'd be happy to. Serbia's 
decision, its strategic decision to pursue EU membership in a 
very active and intensive fashion has been key not only to its 
own dramatic progress over the last year but also to Kosovo's. 
Through the dialogue with Kosovo, Serbia, working with the 
European Union which provided the facilitating role, Kosovo and 
Serbia have been able to reach agreement on principles, on 
normalizing their relationship, a progress, a development which 
was unthinkable or at least very difficult to imagine a year 
ago.
    This has helped both countries advance towards the European 
Union in large part because the European Union has made it 
clear to them that in order to advance towards membership in 
the EU, they would need to reach an agreement. They would need 
to agree on a path for normalizing relations. So Serbia I think 
has shown leadership, has shown initiative and showed courage 
in reaching out to Kosovo and in the same way, Pristina has 
shown great leadership and courage in answering that appeal 
from Serbia to work together towards first agreeing on the 
principles but also to implement them.
    I think this is creating momentum not only for both 
countries in leaving behind some of the past, leaving behind 
some of the painful memories of what has been the source of 
great conflict in order to build a better future for both 
countries.
    It's not only for both Kosovo and Serbia but I think for 
the rest of the region an example for how this kind of 
cooperative spirit, this willingness to look ahead, not so much 
backwards, is a lesson for Bosnia-Herzegovina, Macedonia, 
Montenegro and others which are in different phases in their 
own accession process but I think very interested in the pace, 
the progress that's being made by Serbia and Kosovo.
    I think it's very clear that in Bosnia-Herzegovina, as you 
mentioned, Mr. Chairman, the people, the citizens first and 
foremost, but also the leaders are paying close attention to 
what's happening around them. It has not been missed--it has 
not been gone unnoticed--by the leadership in Sarajevo that the 
leaders in Serbia and in Kosovo have been able to move much 
further forward than 
Bosnia-Herzegovina has been.
    The citizens are finally--I think after a long period of 
time have finally begun to speak up and express their 
frustration with the lack of progress by their own political 
leaders, the kind of progress that they see being made in 
neighboring countries including Montenegro and Serbia and 
Kosovo. So in short, I think it's a very positive development 
that is having a positive influence in neighboring countries.
    Mr. Cardin. What is it going to take in Bosnia to get the 
type of constitutional reforms that allow the country to have a 
centralized government that will permit full integration into 
Europe? The Dayton Accords were supposed to be temporary. And 
yet, we're still living under those accords. As you point out, 
the public demonstrations are clearly aimed at a more 
democratic country than currently exists. With Serbia now 
moving towards integration into the EU, what's it going to take 
to get Bosnia to really give up its ethnic equations and go 
towards a centralized, effective government?
    Mr. Yee. Well, it's a great question, Mr. Chairman, one 
we're struggling with now--``we'' meaning the entire 
international community which realizes that the lack of 
progress which has been underscored by positive developments 
around Bosnia is in need of being addressed in a more urgent 
fashion. I think some of the requirements for moving forward 
and for remedying the problem in--problems in Bosnia-
Herzegovina are actually happening. The ones you mentioned, 
including the progress on the EU track by Montenegro, Serbia 
and Kosovo. I think the expression of the citizens, the 
willingness of the citizens in Bosnia-Herzegovina to stand up 
and to protest, we hope peacefully. But we've seen actually in 
some cases there has been violence which we condemn.
    But the citizens actually standing up and expressing 
themselves is an important ingredient to reaching the solution 
because it's ultimately dependent on the political leaders to 
agree on changes to the constitution, to the legislative 
framework, to procedures under which the governments within 
Bosnia-Herzegovina have been operating or not operating.
    There needs to be reform. In my view, there needs to be 
fundamental reforms in the constitution in Bosnia-Herzegovina. 
I fully agree the Dayton constitution was not meant to endure 
forever as a monolithic, unchanging formula for governance. It 
was meant to end the war, which it did in large part achieve.
    We now are faced--the international community faced with a 
challenge of helping the leadership of the country realize and 
accept the importance of now seizing the moment, seizing the 
opportunity with the support of the international community, 
with the momentum in the rest of the region to advance towards 
European Union accession and NATO membership through 
fundamental reforms.
    We now have elections--national elections coming up in 
October--that places certain limitations, I think as a 
political reality, on what is possible. But we can--we, the 
international community, can use this time to work with the 
leadership in Bosnia-Herzegovina, civil society, the citizens 
to help them decide on what kind of reforms are going to be 
necessary when the new government comes into power.
    Mr. Cardin. Thank you.
    Before recognizing Congressman Engel, and I will in a 
moment, let me point out that Congressman Bishop of New York 
wanted to be here in regards to the concerns on justice for the 
Bytyqi brothers. We have members of the family that are with us 
today and we welcome them here. The Bytyqi brothers were killed 
in Serbia in the late 1990s. They were murdered. They're 
American citizens and we have been seeking answers to why no 
one's been held accountable for these atrocities. And they 
expect our government to do everything we can.
    Now that Serbia is moving towards integration into Europe, 
the opportunities to get closer cooperation may very well 
exist. Can you give us either in a reply now or written reply 
the efforts that are being made to bring justice to these 
cases?
    Mr. Yee. Mr. Chairman, I'd be happy to answer that question 
and also to provide additional details in written form about 
what the Serbian government is doing. I will say that we at the 
State Department and the entire U.S. government, all agencies 
who are concerned with this issue, take the importance of 
bringing to justice, of ensuring that those responsible are 
brought to justice extremely seriously. We are dedicated to 
raising this with the Serbian government at every opportunity.
    Deputy Secretary Burns recently met with the prime minister 
of Serbia and brought it up as one of the first topics of the 
agenda. Our expectation, the U.S. government's expectation that 
Serbia does everything possible to bring to justice those 
responsible for the murder of the Bytyqi brothers. I would like 
to reassure you and also the members of the family who are 
present today of our unwavering commitment.
    We will not rest until we ensure that justice is done in 
this case. It will remain a top agenda item in all of our 
conversations with the Serbian government. I was recently in 
Belgrade myself. I met with the prime minister, Deputy Prime 
Minister Vuccicc also, and made clear that in our bilateral 
relations, this case as well as the burning of the embassy in 
2008 remain cases that we expect resolution and we expect 
justice.
    Mr. Cardin. Thank you, Mr. Yee. I will now yield to 
Congressman Engel, who's our senior Democrat on the House 
Foreign Affairs Committee and the leading member of Congress in 
regards to Albanian issues, which is one of the subject matters 
of today's hearing.

  HON. ELIOT L. ENGEL, A CONGRESSMAN FROM THE STATE OF NEW YORK

    Mr. Engel. Well, thank you very much, Mr. Chairman. I 
appreciate it and I'm just going to ask two questions and just 
make a quick observation. Welcome, Mr. Secretary. I know that 
your area of responsibility is now much larger than when your 
predecessor held this position. With the crisis in Ukraine, it 
can be difficult to sustain attention on the Balkans when 
things in general are getting better. But as we all know, the 
State Department must not lose focus on the Balkans region 
because the job's not yet done. Bosnia and Kosovo, Macedonia 
and Serbia all have serious unresolved issues and the region 
needs U.S. leadership for progress to continue.
    I was a long and early supporter of independence for Kosovo 
and I am very happy that that independence has been achieved 
for some years now. But what troubles me is that today all the 
Balkan states other than Kosovo are either NATO members or in 
the alliance's Partnership for Peace. I believe that Kosovo 
needs a NATO pathway as well, beginning with an invitation to 
join the Partnership for Peace. Quite frankly, it would be very 
unfair to exclude Kosovo, one of the most pro-American, 
Western-oriented countries in the world.
    Denying Kosovo a route to eventual NATO membership would 
only maintain an island of instability and uncertainty in the 
region. Conversely, a Kosovo integrated into NATO would mean a 
region in peace and a military configured to fulfill alliance 
objectives rather than preparing to meet the challenge of 
significantly better all neighbors.
    So my question to you, sir, is does the United States 
support Kosovo joining NATO as Partnership for Peace and will 
we work with our allies and friends in the alliance to make 
this happen in the not too distant future? And do we support 
eventual NATO membership for Kosovo as part of its Euro-
Atlantic future?
    Mr. Yee. Thank you, Mr. Engel. And let me begin by saying I 
fully agree the Balkans need to remain very much in the 
forefront of U.S. foreign policy in Europe. I have numerous 
colleagues who are here with me today behind me who will make 
sure that that remains the case, at least in my office. I want 
to say that yes, absolutely in answer to your question.
    The United States government firmly supports Kosovo's goal 
of joining Partnership for Peace and eventually NATO. We work 
very hard to help Kosovo make the reforms necessary in order to 
meet the requirements both for Partnership for Peace and 
eventually for NATO. We also work closely with other allies who 
have reservations about, as you mentioned, Mr. Engel, 
reservations about Kosovo joining the Partnership for Peace.
    We think there is a lot that Kosovo can already be doing in 
order to prepare independently of the political considerations 
from particular allies who have not yet recognized Kosovo. 
There recently has been, as you know, a security review.
    We've worked very closely with Kosovo in how to reform its 
forces in order to be an efficient, modern force that will be 
eventually able to work with NATO members, other PFP members in 
a way that it will be economically sustainable, in a way that 
will meet the needs of Kosovo and also be able to interact in a 
useful, practical way with other countries in the region.
    We work closely with allies who have not yet recognized 
Kosovo to convince them, to continue trying to convince them 
that it's in the best interest of the region and of Europe as a 
whole to have Kosovo first and foremost a member of the 
Partnership for Peace, of course also of the European Union and 
of NATO. It's far from complete. Our task is not easy in 
convincing those countries who have not yet recognized Kosovo. 
But we remain committed to this task. We see it as vital, 
absolutely vital to ensure Kosovo's long-term sustainability 
and security and prosperity, again, not only for Kosovo but for 
the wider region.
    Mr. Engel. Well, thank you. I couldn't agree more. So thank 
you. Let me stick with Kosovo and say that the negotiations 
between Kosovo and Serbia--I'm very pleased with the fact that 
both countries have understood that this is a way for both 
countries to move forward. And I have been a supporter of both 
countries being involved in the talks.
    But despite progress with Belgrade, Kosovo still 
experiences major challenges, as you mentioned, in its mission 
for greater EU recognition, including economic, political 
integration and visa liberalization which is an important 
issue. So what is the EU doing to address these crucial issues 
and how is the United States playing a role in this as well?
    Mr. Yee. Mr. Congressman, I agree fully on the need to 
continue the momentum that has been generated by the dialogue 
facilitated by the EU between Serbia and Kosovo. I think the 
European Union is committed to seeing this process move 
forward. They've invested a lot of time and energy and 
political capital, particularly from the high representative, 
Catherine Ashton, in ensuring that not only did the two 
governments agree but they would really implement--they would 
seriously work to implement the principles agreed in April of 
last year.
    The EU's first focus in helping Kosovo and Serbia in moving 
along the path towards EU accession is to make the 
implementation process take place in a timely fashion. In other 
words, not to allow either Serbia or Kosovo to rest on the 
laurels of success that they've achieved in either through the 
stability and association process or through beginning the 
negotiation process in Serbia's case, to forget about the very 
difficult issues that need to be resolved in implementing the 
agreement, whether it's the eliminations of perilous strictures 
in the north of Kosovo or the establishment of a judicial 
system that is under Kosovo law.
    There are many challenges. That is I think the most 
important part of the EU's role in providing the necessary 
political and technical assistance in order to keep that 
implementation process moving.
    There's obviously a lot of economic assistance also and the 
EU along with our own USAID, thanks to support from the U.S. 
Congress, is providing a lot of technical assistance in helping 
Kosovo make the reforms necessary, helping building civil 
society in both Serbia and in Kosovo, helping both countries 
develop market economies that will be more conducive to foreign 
investment including from the United States.
    These are all important ingredients in moving the countries 
forward, not only towards accession into the EU but to a more 
prosperous future with jobs and with prospects for their 
younger generations.
    Mr. Engel. Well, with regards to that, Serbia, as you know, 
recently started its negotiation talks with the EU. I think 
it's very important that Serbia adopt all chapters of the EU 
agreement, including chapter 36, which is the implementation of 
the Belgrade-Pristina Agreement. Is there any concern on our 
part that the calling of early parliamentary elections in 
Serbia scheduled for two weeks--about two weeks, or a week and 
a half from now--will delay progress on its negotiations with 
the EU?
    Mr. Yee. Mr. Engel, I think there's no doubt that any time 
there's an election in the Balkans, or anywhere I should say, 
there is a tendency to leave aside some of the hard work that 
could be politically controversial and potentially difficult 
for candidates to sell to their constituencies. However, the 
good news is the elections take place on March 16th.
    So it's not going to be much longer. Also, I should say 
that it's our understanding from our EU colleagues and also 
from contacts through our embassies in Belgrade and Pristina 
that the work has continued towards implementation of the April 
agreement.
    There is we understand another discussion, another round of 
talks, dialogue talks scheduled for shortly after the elections 
in Serbia. So I think, yes, there was inevitably a pause 
because of the election. But it's not been a long one and we 
expect the dialogue to continue and implementation to continue 
shortly after elections.
    Mr. Engel. Let me ask one final question and that involves 
Montenegro. Local Albanians in a province called Tuzi have 
attempted to regain municipality status since 1958. The 
Montenegrin Prime Minister Dukanovicc, with whom I've spoken 
and the ambassador has been very helpful, has promised to hold 
a referendum on this subject repeatedly. I understand there are 
ongoing negotiations.
    I'm told that they are about to hold a referendum. They're 
about to have an agreement. But to date, no referendum has been 
held. I understand some people have raised questions about 
Tuzi's financial viability. So what is the latest you've heard 
about this issue and Tuzi and what is the U.S. doing to 
facilitate a resolution that would address the longstanding 
quest of a local Albanian population in Tuzi?
    Mr. Yee. Mr. Engel, I will need to get back to you with the 
latest details and most recent developments on that issue. I do 
know, as you mention, this has been going on for some time. It 
was a very important issue while I was consul general in 
Podgorica from 2002 to 2005. I think what's important is to 
first of all recognize that the government of Montenegro has 
taken the issue of minority rights and of minority 
representation in the government very seriously.
    And I think that's a positive indication of its commitment 
to the OSCE principles, basic human rights and also the 
importance of political stability within Montenegro. I 
understand that there has been an ongoing negotiation between 
the ethnic Albanian parties and the major majority party, DPS, 
regarding the timing of when to hold a referendum and when to 
possibly make a change in the status of Tuzi. But I don't know 
what the latest developments are on that and I'll have to get 
back to you.
    Mr. Engel. OK. Thank you very much. I haven't asked a 
question on Albania so let me just not do that. But let me just 
state that I hope that Albania, the election that was held 
there, it's always good to see peaceful transition of parties 
in a democracy and I think that we can all look at the progress 
Albania has made through the years and be proud of the role the 
United States has played. Thank you, Mr. Secretary. Appreciate 
your good work. Thank you, Mr. Chairman.
    Mr. Cardin. It's nice to have you here. Thank you, Mr. 
Engel.
    Mr. Yee. Thank you, Mr. Engel.
    Mr. Cardin. Mr. Kinzinger, Congressman from Illinois, it's 
nice to have you here.

 HON. ADAM KINZINGER, A CONGRESSMAN FROM THE STATE OF ILLINOIS

    Mr. Kinzinger. Thank you, Mr. Chairman. And, sir, thank you 
for being here. I'm not going to take a whole lot of time. Just 
had a couple of questions I wanted to discuss, specifically 
Bosnia and NATO expansion, talk about Georgia right now. So 
obviously with everything we're seeing occurring around the 
world with Russia's invasion of Ukraine, we talk about the 
importance of NATO expansion.
    Recently a couple of times I've been to Georgia. Obviously 
they have seen areas occupied by the Russians. In fact, there's 
a process of militarization or borderization going on right now 
including the Russians pushing further into Georgia claiming 
it's for the Sochi Olympics.
    And I'll be shocked if they relinquish some of that buffer 
area that they've created for so-called security. In light of 
the recent invasion, in light of what we're seeing in Russia, 
what's your thought, what's the administration's thought in 
terms of pressing ahead with NATO expansion in Georgia? What's 
the likelihood of that and where would be the difficulties that 
we see?
    Mr. Yee. Well, I should preface my answer by saying that 
unfortunately Georgia's not one of the countries I cover. But I 
do know that there is--there is active discussion in the U.S. 
government and also among other allies on how best to help 
Georgia move forward in its efforts to join Euro-Atlantic 
institutions. I also am aware that there is not yet consensus 
among allies on the best way for Georgia to move forward, 
whether to have Georgia join the Membership Action Plan, for 
example.
    There are many considerations, as you know, Mr. Kinzinger, 
on the potential impact of having Georgia join the Membership 
Action Plan or move forward in its NATO track, potential 
implications for its relations with Russia, for example. There 
is, of course, in the U.S. government no desire to appease, no 
desire to compromise on Georgia's interests with the possible 
implications regarding Russia.
    However, it's a reality we do need to take into 
consideration first and foremost the views of our other allies 
since we cannot make the decision on our own. But we continue 
to work with Georgia in preparing it for the types of reforms, 
to help it make the kinds of reforms that would be necessary 
for it to join NATO, for it to advance on that track regardless 
of whether it's in the membership action plan or not. And of 
course we continue to work with allies to reach a consensus on 
the best way to make that happen.
    Mr. Kinzinger. Yeah, I hope that over the next number of 
months the discussions happening on Georgia, I hope that we can 
move forward in understanding. Obviously Russia has an 
intention of being aggressive against its neighbors and this is 
one that's known that for far too long. What impact would the 
inclusion of Georgia or the movement of Georgia towards an MAP 
or towards NATO inclusion, what impact would that have on the 
Western Balkans and the region if they saw that occurring?
    Mr. Yee. I think the Western Balkans, as the chairman 
mentioned earlier in one of our earlier questions, are 
definitely paying attention to what's happening around them and 
within the Balkans. It's certainly had an impact on the people 
of Bosnia-Herzegovina when they saw that Serbia and Kosovo and 
Montenegro and probably in June Albania moving forward and 
making steps, concrete steps towards European Union accession.
    With NATO, I think if there were progress by Georgia, 
taking a step towards NATO and the Membership Action Plan, I 
think there would be other questions raised in a positive sense 
by the people of Bosnia-Herzegovina why Bosnia is standing 
still, not making progress in either its EU track or NATO. So 
there could be a salutary effect. At the same time, that's 
obviously only one of our considerations.
    We have to take into account the impact on the wider 
security picture in Europe. But in direct answer to your 
question, I think that as more countries move forward towards 
Euro-Atlantic integration, the message will be even better 
underscored that those countries are not moving forward, are 
not only standing still but they're actually moving backwards.
    Mr. Kinzinger. When you look at Bosnia and you look at the 
political leadership and the inability to agree on even some 
basic constitutional reforms that have been called for by the 
European Court for Human Rights, why has the international 
community downgraded its presence and relinquished its powers?
    Mr. Yee. Well, first, I would agree that there has not been 
progress towards implementation of some of the steps the 
international community has been asking Bosnia-Herzegovina to 
make, including with regard to implementation of the Sejdicc-
Finci case, or the European Court of Human Rights decision 
requiring Bosnia to modify its system of electing presidency 
because of discrimination against peoples who were not members 
of the three major constituent peoples.
    We think it's very important that this be solved, as well 
as the other reforms that the international community is 
asking. I would not agree, though, that the international 
community has stepped back or reduced its presence. There may 
be some changes in the numbers of some of our security forces. 
Certainly the United States in recent years has reduced the 
number of forces in Bosnia. But that has been by design.
    That has been in an agreement with the European Union that 
the European Union would increase the number of its forces as 
our forces drew down. And in recognition I think of both the 
aspirations of the European Union but also of the United States 
to see Europe play a bigger role in assuming responsibility for 
security in Bosnia-Herzegovina and in Europe in general. The 
United States continues to have forces in Kosovo. We continue 
to have very large diplomatic presences in Sarajevo, in 
Pristina, in Belgrade, even in Podgorica and in all of the 
countries in the Balkans.
    We have relatively significant assistance programs as well. 
The European Union also, as some of our aid programs have 
decreased, has increased its programs, sometimes surpassing and 
to a large extent the assistance programs that the United 
States used to have, as it should be. European Union member 
states also have said they want to integrate these countries. 
So their presence, their assistance should be commensurately 
larger than ours.
    But I see no lack of commitment from the European Union, 
from the international community remaining engaged in keeping 
open the possibility, the real possibility for the countries of 
the Western Balkans to join Euro-Atlantic institutions. And I 
think that will continue. And I think particular because of 
recent developments elsewhere in Ukraine, other parts, we've 
all been reminded that we cannot avert our gaze. We cannot 
lessen our vigilance if we want to continue our vision, our 
mission of Europe whole, free and at peace.
    Mr. Kinzinger. And so, your assertion is it may be a shift 
in power between kind of America and the EU in terms of 
engagement but there's no overall reduction of international 
engagement.
    Mr. Yee. That would be my assertion, yes, that there may be 
a reduction in some of the numbers. Certainly our assistance 
money, for example, unfortunately I would say has decreased. 
But the European Union has increased its level of assistance.
    Mr. Kinzinger. And I have just two more areas I want to hit 
quickly. We were actively engaged in previous attempts for 
constitutional reform in Bosnia and I think that was a very 
commendable approach, didn't obviously succeed. What are some 
lessons that you think were to be learned from that experience? 
How can we improve going forward, not necessarily from your end 
but what--I guess what are the lessons learned in terms of what 
we experienced there?
    Mr. Yee. I think the first lesson that we learned from 
previous efforts at constitutional reform since the Dayton 
Accords were signed almost 20 years ago now is that it is 
absolutely essential that we in the international community and 
the people of Bosnia-Herzegovina hold their leaders responsible 
for making the changes, making the hard decisions necessary in 
order to reform the constitution and in order to move the 
country forward.
    The international community cannot substitute for the 
elected leaders of Bosnia-Herzegovina. We cannot sidestep their 
authority as elected leaders. That is I think the first lesson, 
that if we do not have the support of the people, if we do not 
have the engagement of the citizens in the reform process, we 
will not succeed.
    Secondly, I think we've learned that we absolutely need to 
have a united European Union-United States effort at whatever 
we're trying to achieve in Bosnia-Herzegovina, whether it's a 
particular type of reform or if it's in convincing political 
leaders they need to take a certain step. We need to be 
together. And this is of course a lesson we're seeing in other 
parts of Europe. But that's absolutely essential.
    Mr. Kinzinger. OK. And I think with the recent protests and 
the widespread corruption that we're seeing, the lack of 
emphasis on democratic ideals, I think it's important that we 
keep reaffirming to the people that we hear them, we know what 
their concerns are and we're going to stand with them. So Mr. 
Chairman, I thank you for the opportunity to participate and I 
yield back.
    Mr. Cardin. Well, thank you. I appreciate your 
participation in this hearing. Mr. Yee, thank you very much for 
your testimony. We want to now move to the second panel. We are 
very pleased that it consists of two distinguished witnesses 
from both sides of the Atlantic. They will provide their own 
independent assessment of the situation in the countries of the 
Western Balkan region of Europe as well as of the United States 
and European policy responses.
    Tanja Fajon, of Slovenia, is a journalist by profession and 
was elected to the European Parliament in 2009. She has been 
active as a proponent of stronger engagement with the countries 
of the Western Balkans but especially with the people.
    She is known as a champion of the visa liberalization 
process for those wishing to travel to EU countries. I want to 
thank you particularly for coming here to the United States, 
knowing full well that European Parliament elections are May 
25th. You're a brave person. We thank you. Maybe you're seeking 
a little bit of rest here. I don't know. But it's nice to have 
you here in the United States.
    And Kurt Volker, who is the executive director of the 
McCain Institute for International Leadership, which is part of 
the Arizona State University. Ambassador Volker was a career 
member of the U.S. Senior Foreign Service with over 23 years of 
experience working on European policies under five U.S. 
administrations. And he served as the ambassador to NATO from 
2008 to 2009, at the time of the enlargement of the alliance to 
28 members.
    He also served as principal Deputy Assistant Secretary of 
State for European and Eurasia Affairs. And he's worked with 
the Commission in the past. So it's a pleasure to have both of 
our experts here today to help us sort through the current 
policy issues in the Western Balkans. We'll start with Tanja 
Fajon. Thank you.

      TANJA FAJON, MEMBER (SLOVENIA), EUROPEAN PARLIAMENT

    Ms. Fajon. Thank you, Mr. Chairman. Thank you for inviting 
me to testify here at this very prominent Helsinki Commission. 
I'm honored to talk to you in the times that are extremely 
important for the European perspective of the Western Balkan, 
even more so given the recent and extremely worrying 
developments in Ukraine, which dominate our concerns to a great 
extent.
    It is necessary that we preserve peace in Ukraine and in 
the entire region and employ all our diplomatic means to 
stabilize the country, to build a united country with respect 
of its sovereignty and integrity and without further even 
deeper ethnic divisions. And we have to engage ourselves 
together through the political dialogue and answer especially 
to the demands of people. But at the same time, we must not 
lose our focus when it comes to engagement and interest in the 
developments in the Western Balkan.
    Ladies and gentlemen, this year is crucial for future 
developments in the region. First of all, my testimony will be 
based on my personal views. As you may already know, I have 
taken the leading role, as you mentioned, in the European 
Parliament in making visa liberalization for Western Balkans a 
reality. And throughout my mandate, I have been encouraging the 
governments, both in the European Union and in the Western 
Balkans to engage more actively in pursuing the enlargement 
agenda.
    Based on its own experience, history and geography, my 
country, Slovenia, plays an active role in the Western Balkans 
accommodating the challenges of the EU integration. I will 
outline my recommendations regarding our policy in the Western 
Balkans, particularly in the light of what should be expected 
in 2014. Challenges are enormous because of the European 
elections on one hand and national elections in several 
countries of the region on the other hand. And the U.S. 
engagement has always been crucial in the past and it will 
remain equally important in the future.
    Without a common understanding of the situation and the 
need to act in an appropriate, credible and unified way, 
without listening to the voices of people as it was well 
illustrated in Bosnia and Herzegovina recently, we might 
jeopardize peace and stability in the entire region. But before 
going into an in-depth analysis, allow me to share with you my 
personal experience as a rapporteur of the European Parliament 
for visa-free travel for citizens of the Western Balkans.
    The abolishment of visas has been the most tangible 
achievement for the countries of the region on their European 
path. It has been a great and historical step in bringing down 
the walls of bloody wars. It has strengthened political and 
economic cooperation and, what is of immense importance, 
people-to-people contacts. We have to do our utmost to preserve 
this freedom of travel despite some nationalistic and 
populistic attacks across Europe against these recently won 
freedoms.
    And we need to abolish visas for the last country in the 
Western Balkans, which is still not on the visa-free regime, 
Kosovo, once it meets the necessary condition. Needless to say, 
visa-free travel is crucial for ordinary citizens, politicians 
and businessmen travel today without waiting in front of the 
consulates and criminals usually don't apply for visas. It is 
about citizens and especially about young people. They will get 
to know the European values and principles only by getting 
closer to Europe.
    Let me start with the country I strongly believe we have to 
put on the very top of our agenda in the Western Balkan. That's 
Bosnia and Herzegovina. It is still the most volatile, 
ethnically divided country. The Dayton Agreement ended the war 
but it did not provide the legal structure for a functional 
country. The February demonstrations were the most serious 
outbursts of violence since the war in the '90s, people calling 
for change, unsatisfied with their political elites and their 
personal welfare. Economic, political and social situation in 
Bosnia and Herzegovina is more than worrying and it urges us to 
act now more than ever before.
    So far, our endeavors lack political will to make a serious 
policy shift. We need clear messages and consistent policies. 
We need an internal process which will lead to a wide 
constitutional reform that can be accepted by the country and 
its people. However, it cannot be externally imposed. The 
European Union has to act as a facilitator. The support of its 
international partners is hereby essential. Bosnia and 
Herzegovina needs a custom-made accession approach. We must not 
focus only on Sejdicc-Finci case. It should not block a new 
application.
    We have spent countless hours trying to forge a compromise. 
We should maybe rethink our future or current policy. We need 
to make use of the elections in October in Bosnia and 
Herzegovina to develop a new unified policy approach with clear 
messages, what kind of structural reforms Bosnia and 
Herzegovina need to implement in order to join European Union. 
I welcome the intentions of the European Commission to focus on 
better economic governance and fight against corruption and 
better implementation of EU-funded projects through the 
instrument for pre-accession assistance but without any 
additional further cuts.
    And this is not enough. We need to channel the social 
frustration in a positive direction, away from further ethnic 
divisions or state dissolution. So far, the demonstrations 
showed no interethnic tensions at all but a generally tense 
atmosphere ahead of the elections can easily set the stage for 
violence on a much larger scale. Therefore, we need a tailored 
policy for the new government after the elections in October 
that will help Bosnia and Herzegovina to present new EU 
membership application as soon as possible, preferably this 
year.
    On Serbia, the country has taken important steps towards 
the normalization of relations with Kosovo and the dialogue 
between Pristina and Belgrade is extremely positive for the 
people and it has opened the way for further steps in the 
European integration process. But it is necessary that both 
sides maintain this constructive approach while working on the 
controversial and very sensitive details that still need to be 
elaborated and agreed upon. And there is still need for greater 
transparency and communicating the outcomes of the dialogue and 
involving the parliaments and civil societies. The negotiators 
need to build better public trust.
    And a very positive outcome of the dialogue were the 
elections in Kosovo. For the first time they included Northern 
Kosovo and for the first time they were in line with democratic 
norms. Serbia, as you know, started the accession talks in 
January this year and it is committed to continue with 
necessary reforms. And given the progress it achieved in the 
recent part, the country has become an important player in the 
region in supporting and promoting European values. And there 
will be early elections on the 16th of March which we already 
discussed and heard about today.
    On Kosovo, because of the normalizations of the relations 
with Serbia, the European Union launched negotiations for SAA 
agreement with Kosovo and hopefully this agreement will be 
signed this year, although the authorities need to make further 
efforts to meet the challenges of the European reform agenda 
and it is expected as well that Kosovo will hold early 
elections in June. In European Parliament, we have encouraged 
in a January resolution the remaining five EU member states to 
proceed with the recognition of Kosovo and we have called on 
all EU member states to their utmost to facilitate economic and 
people-to-people contacts as well as social and political 
relations between their citizens and citizens of Kosovo.
    I visited Pristina two weeks ago and held a press 
conference in Brussels two days ago, so a day before yesterday, 
and I re-emphasized the importance of the visa-free travel for 
the people of Kosovo. There will be an expert mission in Kosovo 
next week evaluating its readiness and I do expect that the 
commission will publish its report without further delay.
    On Macedonia, as I'm coming from Slovenia, unfortunately 
there is not much to say. The EU has decided for the fifth year 
not to open the accession negotiations with the country in 
spite of the positive recommendation of the commission and of 
the European Parliament in this respect. And there is growing 
frustration about the EU in the public opinion. I strongly 
support the idea that the bilateral issues between Macedonia 
and Greece should be resolved before the end of the accession 
process.
    But they should not present an obstacle to the opening of 
the negotiations. And a further delayed process poses a 
considerable risk to the regional stability. I hope that Greece 
will use its EU presidency to create a positive environment. 
But still, it takes two to tango and it seems that no side is 
capable and ready to develop new initiatives to overcome the 
current stalemate on the name issue.
    There will be the presidential elections coming and early 
parliamentary elections. It is difficult to believe that there 
will be a good atmosphere to find a solution. In any case, all 
the gestures, controversial actions and statements which could 
negatively impact on good neighbor relations should be avoided.
    On Montenegro, it seems to have least problems among the 
Western Balkan countries. It still shows broad enthusiasm for 
entering the European Union. Two chapters have been 
provisionally closed--fight against corruption and organized 
crime and judicial reform remain top priority as for all of the 
countries of the Western Balkans. But nevertheless, I want to 
use this opportunity to once again express my deep shock and 
concern about at least two bomb attacks and around half a dozen 
physical attacks against journalists in the recent past. I've 
called on the responsible authorities in the country several 
times to protect journalists and adequately investigate and 
prosecute all these attacks and threats.
    Albania has a new government after the June parliamentary 
elections and it has improved its reputation significantly 
after an orderly conducted and peaceful transfer of power. This 
new government has an ambitious European agenda and significant 
progress has already been made in the first hundred days of its 
functioning.
    Therefore, I do expect that the EU Council in June will 
grant Albania a candidate status. It is also true that the 
political climate in the country must be improved. But delaying 
the granting of candidate status would mean to risk the 
momentum for further progress in democratic development of the 
country. And we must not forget that the country has been the 
most isolated country of the Western Balkans in the past.
    And let me conclude with a few final remarks. First, 
despite the economic and social crisis in Europe, the 
enlargement of the European Union towards the Western Balkans 
countries must remain our priority. The political situation in 
the region is still very fragile. In particular, Bosnia and 
Herzegovina shows varying signs of instability. And peace and 
stability of the region is our common strategic interest. With 
the support of the United States and its international 
partners, the European Union must lead a unified, comprehensive 
policy approach toward the Western Balkans.
    We must be capable to shift our policy approach when 
needed. The economic crisis has hit the Western Balkans very 
hard. Europe and the United States should seek opportunities 
for more investments in the Western Balkans.
    European Union institutions and the governments need to 
make use of this year, the year of European elections, to fight 
nationalism and extremism in the region. Otherwise, it will 
jeopardize the European integration process. A credible 
European Union policy towards the Western Balkan demands in-
depth understanding of the history of these countries, 
different political and economic situations, involvement of 
local authorities, NGOs, experts and the civil society.
    And last, the Brdo Process launched by Slovenia and Croatia 
has the potential to become a strong engine of political and 
overall development in the region. The July summit of the Brdo 
Process with French Prime Minister Hollande was a historical 
event for the region which set the fundaments for a fruitful 
common initiative and a successful story of the region. The 
next summit of the Brdo Process will take place in Croatia in 
July with Chancellor Angela Merkel already confirmed the 
participation. Thank you for this opportunity.
    Mr. Cardin. Well, thank you very much for your testimony. 
Ambassador Volker?

    KURT VOLKER, FORMER U.S. AMBASSADOR TO NATO, EXECUTIVE 
    DIRECTOR, McCAIN INSTITUTE FOR INTERNATIONAL LEADERSHIP

    Amb. Volker. Thank you, Mr. Chairman. It is an honor for me 
to be here. I have a written statement I'd like to put into the 
record and I'll just summarize my views orally.
    Mr. Cardin. Your written statement--all written 
statements--will be made part of our record, yes.
    Amb. Volker. Thank you. Thank you. I want to start by 
commending you for having this hearing to focus on the Western 
Balkans. It's easy to get lost in the fray. And I think it's 
good that we do that. So thank you for doing that. I also want 
to commend you for your comments on Ukraine. You've heard 
excellent statements from Deputy Assistant Secretary Yee and 
from Ms. Fajon. So what I'd like to do is offer maybe a 
slightly broader perspective on the issue.
    In my view, any discussion today about the Balkans really 
doesn't start with Sarajevo or Pristina but perhaps needs to 
start with Crimea. What we've seen in Europe in the past week 
and a half is the use of military force to invade a country, to 
occupy part of it, change borders by force perhaps. Really the 
gravest threat to democracy, freedom and security in Europe 
that we've seen in the last 25 years.
    We've spent 25 years supporting the rights of people in 
Central and Eastern Europe to determine their own future, to 
build democracies, to build market economies, to build 
security. NATO membership and EU membership have been a means 
toward that end. And it has been remarkably successful.
    I think that nothing can excuse what Yanukovych has done in 
Ukraine or what Putin has done now by having this quasi-
invasion of Ukraine. But I do think that there is a factor here 
which has been complacency and perhaps some disengagement on 
the part of the West, Europe, the United States, that you can't 
blame for these conditions but nonetheless should have had a 
more proactive policy of supporting reform and supporting the 
momentum towards really building a Europe whole, free and at 
peace. I'm afraid that that's what I see in the Balkans as 
well, a little bit of complacency, a little bit of insufficient 
engagement from the leaders of the European Union, from NATO, 
from the United States.
    We have wonderful members of the European Parliament who 
are engaged. But I think we need to have a more proactive 
policy because when it's not there, the darker forces rise to 
the surface and create conditions that make it harder to make 
progress. And we've seen this in Eastern Europe but I'm afraid 
we do see it at times in the Balkans as well.
    So in that context, I think it is important that we 
redouble our efforts to bring about and promote the right kinds 
of reform in the Balkans and to use the prospects of NATO and 
EU membership aggressively in order to encourage the right 
reforms and to cement the movement of those societies in a 
direction that is in the best interests of the people there at 
their own choosing as well as in the best interest of Europe as 
a whole. With that as a background, let me give a little 
specifics about some of the countries there.
    Start with Montenegro, it's come up earlier today. 
Certainly Montenegro has more work to do in terms of political 
reform, judiciary, dealing with crime, dealing with Russian 
influence. But let's face it. Other countries had work to do 
when they joined NATO and the EU as well. And I think we're at 
a time now where it's time to extend an invitation to 
Montenegro at the 2014 summit in the U.K. And then progress 
shouldn't stop there. We should continue to have expectations 
for reform and development in Montenegro.
    The second one is Macedonia. Likewise, I think it is 
shameful that the name issue has been a block to progress in 
Macedonia and a block to progress in the wider Balkans region. 
It serves no one's interest. It is not in Greece's economic 
interest to have a Balkan region that is held back by keeping a 
country away from NATO or EU membership. Moreover, having spent 
a lot of time with people from both sides of this question, I'm 
convinced that there is a solution to the name issue, that it 
can be done as a win-win for both countries and should be an 
opportunity to move on.
    I do however believe that requires a context of U.S. 
leadership and European leadership to help those countries get 
to that win-win solution. I think it can be done. And again, I 
think it should be done using the September 2014, NATO summit 
as a target. And that invitation could therefore be extended to 
Macedonia as well.
    To move on to other countries, it's come up before on 
Bosnia and I'd like to address a point you asked in a question, 
what needs to be done. I think it's high time--it's past time 
that we have a Dayton II effort to really put the governing 
issues of Bosnia on the table. They can only be agreed by the 
Bosnians themselves. But they need the context of U.S. and 
European leadership to create a framework in which that kind of 
negotiation can take place.
    In the absence of changes to the Dayton framework that 
currently exists, we see a political and governing structure 
that reinforces ethnic nationalism, that paralyzes governance, 
that rewards the politicians who bring some of the worst 
elements to the table in domestic politics. We need to try to 
push beyond that.
    I want to commend High Representative Catherine Ashton for 
her work on Serbia and Kosovo. I think that has made 
substantial progress. I don't see that we're going to have 
major new breakthroughs. But I think further practical steps 
should be encouraged and should be supported.
    And then one final word I'd like to put in about democracy 
generally. NATO and EU membership are not an endpoint in 
themselves. They're a means to an end. The real end is 
societies that respect human rights, that protect minorities, 
that function democratically, that build prosperity for the 
citizens, that are stable, secure and contribute to a good 
neighborhood in the Euro-Atlantic community.
    And NATO and EU are powerful tools on that road but they're 
not an endpoint. And even for countries that have already 
joined NATO and the EU, there is often a lot of work yet to do. 
And we see that with some examples in the Balkans, some 
examples in Central Europe, some examples, frankly, in Western 
Europe. And so it's a continuing effort to try to build the 
right kind of societies. We shouldn't hold NATO and EU out 
there as a final endpoint after everything has been done but 
rather to try to use those institutions and those memberships 
as ways to further promote progress in building a Europe whole, 
free and at peace, as we have done for the past 25 years. Thank 
you, Mr. Chairman. And I look forward to your questions.
    Mr. Cardin. Well, let me thank both of you for your 
contributions to this hearing. And I can tell you, we are going 
to maintain our focus in this region. We are very proud of what 
has been done but we know there's still progress that needs to 
be made. And we have to balance very carefully the importance 
of internally-driven solutions but within the context of the 
international expectations, particularly with Europe and the 
United States. That's our challenge.
    I want to start with a question on a subject we haven't 
really covered as well. And that is that there are human rights 
concerns. You mention in your testimony the safety of 
journalists. The secretary mentioned the corruption issues 
within the Balkans. Our TIP report shows significant need for 
progress on trafficking. Can you just share with us your 
observations as to whether--at what stage these countries are 
prepared to improve governance and respect for human rights?
    Ms. Fajon. Thank you. Thank you, Mr. Chairman, for this 
very important question, human rights. Of course, I will start 
from the perspective of what is happening in the regard of 
visa-free travel because what we are seeing is that a lot of 
people, especially representatives of the minorities coming 
from Roma society, are leaving their countries coming from 
Serbia, from Macedonia or from Bosnia and Herzegovina. And this 
is one of the greatest concerns, how to ensure a safe 
environment, the reintegration for this most volatile part of 
the community.
    And certainly the governments are doing a lot. They are in 
a constant dialogue with Brussels, what is possible to improve 
the situation. But we have to be aware that we are talking 
about very difficult economic conditions of the countries where 
on one hand we have more and more people living on the edge of 
poverty. And it's difficult even to blame people who are trying 
to find better life in the western part of Europe, going to 
search there for asylum or jobs or citizenship. And it's 
something we have to tackle very seriously.
    What is my concern is when I see that people are often 
misled as well to use the freedom of travel and they often sell 
all their properties by certain agencies or criminal networks 
to get the free ticket to Europe and then finally they find 
themselves in the illegal situation or they are sent back.
    So when we discuss about the human rights violation or 
discrimination, we have growing concern what is happening with 
those people stopped on the borders because countries, of 
course, in the region try to prevent abuses of visa-free 
regime. So we have to ensure that people who are coming from 
different background or belonging to Roma population or other 
minorities, that they don't face any discriminatory rules.
    Certainly we have to have constant monitoring of the 
situation. We are doing everything as well in the European 
Parliament to help the governments, as well with the fundings 
because it's an extremely difficult economic situation, most 
part of the region and to try to ensure that human rights are 
respected to a great extent.
    Mr. Cardin. Thank you. Mr. Ambassador?
    Amb. Volker. Mr. Chairman, thank you. First, I share your 
concern about human rights in the region and more generally. I 
would observe that human rights in the region, while there are 
challenges, as you mention and as Ms. Fajon mentioned, they are 
better than they have been and they are better than they might 
be. So we have still a window here where the Balkans has 
produced some progress. I think the reason that it is not as 
much progress as we want is because of some of these larger 
forces that I described. It allows corruption to be an easy way 
out.
    It allows criminality to go a little too far. It creates 
legal systems and judiciary systems that are vulnerable to the 
extent that these countries are not firmly on a track into the 
right institutions with the right kinds of engagement and 
pressure over a long period. I think that it is worthy of the 
European Union and the United States to continue to put 
pressure on human rights on every case that comes up, whether 
it's journalists or corruption or unresolved murders, as was 
brought up. Those things are important. And at the same time, 
we should also keep pressing the engagement with NATO and the 
European Union and using all the tools at our disposal to bring 
these countries in because it's only with leaders with the 
incentives in front of them to clean up corruption, to take a 
harder track on crime, to fix judiciaries that are really going 
to tackle these problems in the long run.
    Mr. Cardin. You know, you get basically one shot at this on 
their transition, to a country's transition to Europe. Once 
they're members, the leverage is nowhere near as direct or 
strong. And it seems to me that we have pretty specific 
expectations on some of the governance issues as it relates to 
democratic institutions and centralized control of central 
institutions of government including the military. That's 
pretty well-defined, what is expected.
    On the human rights front, it becomes a little bit more 
difficult at times to get that specific with changes, 
particularly with corruption because corruption is not as easy 
to define as you resolve the problems in your country. We have 
pretty good information on trafficking. We can, I think, be 
pretty specific as to what we expect, improvements there on the 
safety of journalists, there's pretty good information on that.
    Roma populations, minority populations are very 
challenging. As you point out, the economic issues but there's 
always justifications by pointing to what's happening in 
Western Europe or other areas to say we are using dual 
standards. So there is a problem with the Roma populations and 
other minorities that we have to do a better job in demanding 
progress to be made.
    So I think your testimonies are very helpful in that regard 
and I'm glad we had a chance to talk about it. I just want to 
follow up on your point about people-to-people. I couldn't 
agree with you more. It seems to me people-to-people is how 
changes are taking place. When I was in Bosnia, I think my best 
meeting was with the students. When I was in China, my best 
meeting is with the students.
    They are the only group of people from whom I heard 
something different. You know, they're really very inquisitive 
and interested in what was going on in the West and very 
interested in getting their views across. And we had a great 
debate. In Bosnia, we see the popular expressions on the 
streets because of their frustration but it's also refreshing 
to see that the people get it. How do you translate that to the 
leaders?
    Of course, that's part of democracy, how that comes about. 
And that's going to be our challenge moving forward. Let me 
just ask the question in regards to Bosnia to both of you. 
We've heard a lot of the challenges that they have. In your 
view, what does Bosnia need to do? What would be their 
priorities for change in order to accelerate a Membership 
Action Plan for NATO and application for Europe?
    Ms. Fajon. Thank you for this actually extremely difficult 
question because it demands firstly understanding of the 
situation that in the last few years in Bosnia and Herzegovina 
we haven't really seen any progress. We have seen many 
commitments or promises they were given by the political elites 
in the country. But they were never fulfilling them, especially 
when it comes to all the points on the European agenda, to the 
case of Sejdicc-Finci, to the coordination mechanism and so on.
    And most probably what we've seen with the manifestations 
and demonstrations on the streets in the recent past, it's 
somehow the mirror of the society, of what is happening in 
Bosnia and Herzegovina, the dissatisfaction with the political 
elite. And recently, as you may know, the commissioner for the 
enlargement simply gave up the facilitation with Sejdic-Finci 
talks with the political leaders. It seems that we have to 
start rethinking our policy when we discuss with the political 
leaders of the countries maybe where we have to bring it to the 
level of the institutions.
    But seriously, we have to make the pressure. And I'm very 
happy to see that the society actually actively engaged finally 
to bring the voice on the streets in a peaceful way to demand 
the changes of the country. I cannot prejudge what the 
elections will bring in October. But certainly corruption is a 
very big problem in the country.
    And we have to tackle with the agenda to bring the country 
closer, to help them with the European reforms and to really 
continue engaging all the political forces in the country to be 
united and not only work the politicians in the country for 
their ethnic community but for the whole country as united. And 
this is what is lacking in Bosnia and Herzegovina. And of 
course a proactive approach of European society with United 
States and international partners has to be much stronger.
    And how to achieve that? We are not really bringing the 
solutions but trying to facilitate, to find a solution, it is 
probably the most demanding challenge ahead of us. But we 
should use this momentum now when we have people who are 
actively engaging and to include the civil society and the 
experts in the discussion on the future perspective of Bosnia 
and Herzegovina.
    Mr. Cardin. That's very helpful. Thank you. Ambassador?
    Amb. Volker. Thank you. if I could address a couple of 
points that you've raised, one of them is just to recall when I 
served in Hungary or when I was at the National Security 
Council, we were very proactive with interagency teams working 
with interagency teams from each of the candidate countries, 
developing lists of things that needed to be fixed in order for 
us to be comfortable offering an invitation to join NATO. 
Slovenia was a great example as well.
    Some of these required very difficult decisions on the part 
of countries. But they believed that we were serious, that at 
the end of the road there would be a membership invitation and 
that this would come out of NATO and eventually the EU. And so, 
they made some tough decisions. You're right that once it's 
done it's harder to exercise influence.
    But in that process, a lot can be done. I have a feeling 
that the countries today don't believe we're serious, that 
we're not trying to get to that outcome. And so, the pressure 
is less there for the leaders to make some tough decisions and 
clean up some things that need to be cleaned up. That comes to 
your question about Bosnia. The Membership Action Plan was 
meant to be a tool on the path to a country being ready to 
become a member. So we don't expect everything to be done. We 
expect to use the Membership Action Plan for that purpose. You 
do need an interlocutor and this is where in Bosnia in 
particular the lack of an effective central government 
authority, particularly exercising control of the military and 
military installations and depots, is a problem. It doesn't 
give us the effective interlocutor that we really want to have.
    I think to get there, we probably should be just, as has 
been done during the course of this administration and they've 
been focused on this, work to get the central authorities in 
the strongest position possible to deal with the security 
issues, to make them an effective interlocutor for NATO.
    And then in parallel we do have to work on these bigger 
structural, political issues in Bosnia that will hopefully 
create different governing conditions that--what you have now 
is gridlock in the center and the Republika Srpska or other 
more local political actors running the show for their own 
benefit. We need to have a stronger central authority that 
functions governing a country while respecting the regional 
differences within the country.
    Mr. Cardin. I think that's very helpful. I agree. It's 
responsibility on both parties. It seems to me Europe and the 
United States, NATO need to be very clear about their timelines 
on membership so that there is clear understanding. I think 
there's been some mixed signals sent. But clearly the principal 
responsibility is with the country to be very serious about the 
reforms. The reforms are important for transition into Europe.
    But they're also important for the security of the country 
itself and their future democratic commitments. So I think it's 
a dual responsibility here. But I think we could give a clearer 
message which would be helpful to get the serious progress made 
on a realistic time schedule. Let me again thank both of you 
for your testimony. And with that, the Commission will stand 
adjourned. Thank you.
    [Whereupon, at 11:33 a.m., the hearing was adjourned.]

                          A P P E N D I C E S

PREPARED STATEMENT OF HON. BENJAMIN L. CARDIN, CHAIRMAN, COMMISSION ON 
                   SECURITY AND COOPERATION IN EUROPE
    At today's hearing, we will focus on developments in the countries 
of the Western Balkan region of Europe, as well as U.S. and European 
policy responses. While we all have recently focused our attentions on 
the critical situation in Ukraine--and the Helsinki Commission will 
certainly continue to do this as well as focus on human rights problems 
in Russia, the countries of Central Asia and elsewhere--we should also 
be proactive and focus on situations before they become, as the Western 
Balkan region once was, disturbing headline news.
    The Helsinki Commission has focused its attention on specific 
countries in the Balkans many times in the past, but a regional 
overview is more important than ever before. Each country is at a 
different stage of achievement or preparedness in meeting their Euro-
Atlantic and European aspirations, but they all share an interest in 
each other's advancement and stability.
    The United States and Europe continue to have a vested interest in 
seeing this progress take place. While the Western Balkans is no longer 
the setting for violent conflict that it was two decades ago, we have 
had to devote considerable resources--financial, diplomatic and 
military--to restore peace and to encourage the democratic and other 
reforms necessary to sustain it. That job is not done. Having 
accomplished so much, we need to see the task of a stable, democratic 
and fully integrated Western Balkans completed.
    These countries have also demonstrated a willingness to contribute 
to peace operations globally, and, if they are not already, they should 
soon be our newest allies in a stronger NATO Alliance. It is my view, 
at least, that their membership in NATO, if they choose to join, 
enhances our own security. More than that, as NATO allies and EU 
partners, the countries of the Western Balkans will be bound to each 
other's security and better able to find reconciliation among 
themselves, to strengthen their ties and to focus on their collective 
potential. Having gone through so much, the people of the region 
certainly deserve this brighter future.
    In the past year, we have been particularly encouraged by Croatia's 
joining the European Union, the progress leading to the normalization 
of relations between Serbia and Kosovo, the beginning of negotiations 
for Serbia's EU accession, a smooth political transition in Albania 
that will hopefully pave the way for that country to begin soon its 
negotiations as well, and Montenegro's ongoing progress toward both 
NATO and EU membership. Kosovo has just celebrated six years of 
independent statehood. It still has a long way to go and must confront 
some undoubtedly major obstacles along the way, but it has demonstrated 
a very welcomed commitment to moving forward.
    While encouraged by these developments, we continue to worry that 
progress in the two most multi-ethnic states in the region--Bosnia-
Herzegovina and Macedonia--has stalled. In Bosnia, we have seen for 
some time that the political structures created by the Dayton 
Agreement, with their emphasis on ethnic balances rather than good 
governance, have become outdated, undemocratic and divisive, but we are 
now seeing the implications of trying to maintain the status quo in the 
form of popular unrest and a public demand for greater accountability. 
Macedonia, which had made considerable strides in its desire to join 
both NATO and the EU, today struggles to maintain its democratic 
credentials and internal cohesion while Greece's dispute with its name 
has put its aspirations effectively on hold.
    Then, there are issues that pervade the region--official 
corruption, trafficking in persons, the plight of Roma, attacks on 
journalists and control of the media--which continue to be a concern. 
Many wounds of past conflict--wounds in the form of missing persons and 
unpunished war crimes--remain open and cannot be left unattended. 
Several countries in the region will hold elections this year, but 
conditions for a free and fair contest could use further improvement in 
at least some of them.
    The Helsinki Commission emphasizes the need for governments to 
implement the commitments they have undertaken in the OSCE, especially 
those relating to human rights and democratic development, and I hope 
we focus on that here at this hearing. At the same time, given the 
tremendous role and influence the United States and Europe have in the 
region, we cannot ignore our own policies and whether they are actually 
encouraging the progress we expect. We need to look at whether mere 
promises of NATO or EU enlargement at some time in the future are 
sufficient leverage for change, and what we can do in the meantime to 
keep these countries on track.
 PREPARED STATEMENT OF HOYT YEE, ASSISTANT SECRETARY FOR EUROPEAN AND 
               EURASIAN AFFAIRS, U.S. DEPARTMENT OF STATE
    Mr. Chairman and distinguished Commissioners, thank you for 
inviting me to testify today before the Helsinki Commission, which, for 
nearly 40 years, has played a vital role in fostering democracy, human 
rights and security across Europe and beyond. Given your keen interest 
in the western Balkans, I am particularly honored to have an 
opportunity to provide an assessment of democratic developments and 
prospects for Euro-Atlantic integration in the region, and I look 
forward to discussing how we and our European partners can best 
encourage further progress.
    The appeal of EU and NATO membership has been a positive force for 
the political and economic transformation of the western Balkans, and 
I'm pleased to say we have some successes to report. In the past year, 
Croatia became the 28th member of the European Union. Montenegro 
progressed toward EU accession. Albania had the best democratic 
transition in that country's history. And, perhaps most remarkably, 
Serbia and Kosovo signed a historic agreement to normalize relations, a 
move that spurred the European Council to begin negotiating a 
Stabilization and Association Agreement with Pristina in October and to 
open EU accession talks with Belgrade in January.
    These advances and other positive developments in the region are 
especially encouraging because they are, in large part, a result of 
sustained American engagement and assistance, which includes providing 
$315 million in development aid over the past two years. For more than 
20 years, U.S. engagement has been driven by a desire to support the 
aspiration of western Balkan states to integrate into Euro-Atlantic 
institutions. This has been the top policy objective of Republican and 
Democratic administrations alike because it is the best means of 
ensuring long-term peace, stability and prosperity in a region that is 
a critical part of Europe--historically, geographically and culturally. 
Recent progress, however, has not blinded us to the fact that there are 
still many challenges that must be overcome before Euro-Atlantic 
aspirations are fully realized.
    As we have seen time and again, progress comes most rapidly when 
political leaders and other actors break from how things were done in 
the past. When people are no longer mired in the past, but inspired by 
the future, they start thinking realistically about what needs to be 
done to improve their countries and begin making the tough decisions to 
get there. We saw this in Croatia, where successive governments stuck 
to an overarching goal--EU membership--and they committed the resources 
and relentlessly pursued the reforms needed to achieve it. The payoff 
came last July when Croatia became the newest EU member, demonstrating 
to the entire region that the door to EU integration is still open. In 
order to enter, however, states must display the same level of 
commitment and ability to institute needed reforms. We are very pleased 
to see that Zagreb is now sharing lessons it learned with its neighbors 
who aspire to join the EU and NATO.

                           Serbia and Kosovo

    We're greatly encouraged by the ongoing dialogue between Serbia and 
Kosovo, brokered by EU High Representative Catherine Ashton, which has 
already yielded many successful breakthroughs. The United States 
supported the EU's tireless efforts to build a framework for dialogue 
between Belgrade and Pristina. This EU-
facilitated dialogue became a space in which the two sides tackled 
seemingly intractable differences that have prevented them from moving 
forward on their respective paths of European integration and improving 
the lives of their citizens. Last April, this dialogue produced a 
landmark First Agreement of Principles Governing the Normalization of 
Relations between the two countries. The so-called April 19th agreement 
has been followed by regular high-level and working-level meetings 
aimed at translating those principles into functional reality on the 
ground.
    Full implementation of the April 19th agreement will not be easy, 
and the United States must remain engaged with Pristina, Belgrade, and 
the EU over the long term to ensure progress continues. Both countries 
will face numerous politically difficult decisions in the coming months 
and years. We can expect to see occasional backpedaling, delays, or 
attempts to reopen or reinterpret what was agreed. However, I'm 
confident that both Serbia and Kosovo will remain committed to 
normalizing relations, because it is indivisible from their aspirations 
for EU membership. The very same mechanisms the EU has in place to 
guide both countries forward on their EU paths will serve to 
systematically measure their progress toward normalization. 
Normalization and EU accession progress will also provide important 
economic benefits for both countries.
    Serbia's performance in the Dialogue reflects its current leaders' 
pragmatic approach to invigorating Serbia's standing in the world, and 
this progress also makes it possible to deepen the U.S. bilateral 
relationship. Serbia's 2012 election produced a government that 
committed itself to reforms and to growing relationships with the EU 
and the United States. Serbian officials recognize the need to enact 
economic and legal reforms that will be difficult, but necessary as 
part of the EU accession process and for economic revitalization. We 
expect that Serbia's March 16 elections will produce a government that 
continues along the path that the current government has charted. The 
United States continues to urge Serbia to bring to justice those 
responsible for the murder of the Bytyqi brothers and the 2008 burning 
of the U.S. embassy.
    Kosovo celebrated the sixth anniversary of its independence on 
February 17th. Still the youngest country in Europe, it has made 
tremendous progress in its development as a fully sovereign, 
independent state and in building modern, multiethnic, and inclusive 
democratic institutions. The signing of the normalization agreement 
with Serbia and the launch of Stabilization and Association Agreement 
talks with the EU last year were significant achievements. The end of 
supervised independence in 2012 was another milestone reflecting 
Kosovo's accomplishments toward realizing the principles enshrined in 
its declaration of independence and constitution. In law enforcement, 
the Kosovo Police is integrating ethnic Serb officers who had 
previously served in parallel police forces under de facto Serbian 
control in the north, and Kosovo is cooperating with EULEX and its 
Special Investigative Task Force looking into the very serious 
allegations contained in the 2010 Council of Europe report (the ``Marty 
Report'') on organ trafficking and other serious crimes. In the 
security sector, NATO declared ``full operational capability'' for the 
Kosovo Security Force, and the KSF has made impressive efforts to 
recruit Kosovo Serbs. A soon to be released security sector review, 
which the U.S. Defense Department has helped facilitate for the past 
two years, is aimed at developing Kosovo's security institutions in a 
way that deepens Kosovo's relationships with Euro-Atlantic institutions 
and contributes to regional stability.
    We know that Kosovo faces many challenges. National elections this 
year must sustain the positive momentum of last year's well-organized 
municipal elections. Further strengthening rule of law and tackling 
corruption; ensuring the rights of minorities including returnees are 
fully protected in practice, expanding economic opportunities, and 
building on the already 105 countries around the world that recognize 
independent Kosovo remain among the central tasks Kosovo's current and 
future leaders and citizens face. The United States remains committed 
to helping them with this, as we support Kosovo's progress toward full 
Euro-Atlantic integration.

                                Albania

    Albania has also enjoyed a year of strong progress, highlighted by 
the success of last June's parliamentary elections, which marked the 
country's smoothest democratic transfer of power without violence or 
allegations of vote rigging. The new government took office in 
September, and like its predecessor, continues to hold Albania's strong 
partnership with the United States as a key strategic priority. We have 
been strengthening our military-to-military relationship with Albania, 
a process that has been enhanced by some welcome reforms and innovative 
programs undertaken by the new defense minister. For example, Albania 
enjoys close partnership with the state of New Jersey and this year 
will start sending new Albanian officers to train at the state's 
National Guard officer candidate school (OCS) alongside American 
officer candidates. That said, much work still lies ahead for Albania.
    Despite the European Commission's recommendation that Albania be 
granted candidate status, the European Council decided in December to 
hold off and give Tirana six months to demonstrate additional progress 
under the new government, in particular in fighting corruption and 
organized crime. Albania must convert the initial steps it has taken to 
improve the efficiency of investigations and prosecutions into tangible 
results. We are encouraging the government and opposition to work 
together to develop a track record by the time Council meets in June to 
reconsider whether to grant candidate status. Time is short, so Albania 
will need to act quickly.

                               Montenegro

    Montenegro, which began accession talks last June, recently opened 
the two most challenging EU acquis chapters, ones addressing rule of 
law, judicial transparency, and corruption. To close these chapters, 
it, too, will need to establish a track record of fighting organized 
crime and high-level corruption. Government officials are motivated to 
make needed reforms not only by their desire to follow Croatia into the 
EU but also by their aspirations to join NATO. In his annual report 
issued in late January, NATO Secretary General Rasmussen noted that 
``good progress'' has been made in meeting NATO standards, but 
Montenegro still needs to do more to fight corruption, reform its 
intelligence apparatus, and modernize its defense. We are also 
concerned about the relatively low level of Montenegrin public support 
for NATO membership, which largely stems from misconceptions about the 
responsibilities and benefits of membership. To bolster support, the 
government has launched a public awareness campaign, and our Embassy in 
Podgorica last month provided grants to nine governmental and non-
governmental organizations to aid this effort, and we are encouraged to 
see some positive results from these efforts.
    We and other Allies continue to review Montenegro's reform progress 
and readiness for membership. The prime minister and other top 
officials assured me during a recent trip to Montenegro that they are 
committed to the process of implementing the reforms needed to 
demonstrate full readiness to join NATO. Some Allies would like NATO to 
take up enlargement at the September summit in Wales, a position 
several members of this Commission endorsed in a recent letter to 
Secretary Kerry. At Washington's suggestion, the NATO International 
Staff was tasked in December with assessing each aspirant nation's 
progress toward NATO membership and providing a summary of their 
findings by June. At that time, we will review the report in light of 
the upcoming summit.

                               Macedonia

    Macedonia's integration into the EU and NATO remains vital for 
lasting peace and stability in the region. However, the name dispute 
with Athens continues to stymie progress toward this goal. Both sides 
in that dispute should be motivated by the desire to seek a solution 
that ensures the democratic and prosperous development of the Balkan 
neighborhood.

                         Bosnia and Herzegovina

    We are deeply disappointed that the basic conditions to move Bosnia 
and Herzegovina ahead on its EU and NATO paths remain unfulfilled 
despite constant encouragement and support from U.S. and EU officials. 
Bosnia and Herzegovina has yet to comply with the 2009 European Court 
of Human Rights ruling in the Sejdic-Finci case, which found the 
Bosnian constitution is discriminatory because the tripartite 
presidency and seats in the upper house of parliament can only be held 
by Serbs, Croats, or Bosniaks. To date, politicians have been unable to 
muster the political will to agree on a new constitutional formula to 
comply with the ruling, despite numerous pledges to do so, nor have 
they resolved the immovable defense property issue, which the Alliance 
established as a prerequisite for activating the country's NATO 
Membership Action Plan (MAP).
    Bosnia and Herzegovina's Euro-Atlantic aspirations will remain 
stalled as long as its political leaders remain focused on parochial, 
short-term political interests rather than the long-term welfare of the 
people they were elected to represent. This unwillingness to compromise 
for a better future was on full display when EU Enlargement 
Commissioner Stefan Fule convened the leaders of the seven main 
political parties two weeks ago in an effort to push forward on 
implementing Sejdic-Finci. Nine hours of negotiations ended in yet 
another failure as no leader was willing to budge, leading Fule to 
abandon his facilitation efforts. Recent protests that swept the 
country are expressions of citizens frustrated by self-serving 
politicians, bad governance and poor economic conditions. The protests 
underscore the need for the international community to review its 
engagement with Bosnia and Herzegovina and see if a new approach might 
be warranted. We also urge Bosnian voters to take their frustrations to 
the ballot box in next October's elections and vote for political 
leaders who will be serious about breaking the political logjam.

                     Organized Crime and Corruption

    Bosnian protestors have voiced particular frustration with the 
country's intolerable level of corruption. Bosnia and Herzegovina is 
not alone, however. Official corruption is a daily fact of life across 
the region, and it is preventing democratic and economic reforms from 
taking firm root. Tackling this pervasive problem is a first step 
toward meeting the standards of EU and NATO membership, but that should 
not be the sole incentive. Combatting corruption, and its close cousin 
organized crime, is vital for ensuring brighter futures for all Balkans 
countries and should be pursued vigorously in its own right.
    For too long, the fight against organized crime and corruption 
consisted of little more than those in power complaining about and 
targeting their predecessors. Governments across the region are 
implementing anti-corruption and judicial reform strategies needed for 
proactive investigations and prosecutions. Now that police and 
prosecutors are being given the necessary tools, we would like to see 
these tools put to use in a consistent and even-handed manner. 
Political leaders must make it clear that no target is off limits.
    Organized crime and corruption cannot be curbed without enhancing 
cross-border cooperation, which is a primary objective of our rule of 
law assistance and training in the region. When countries put aside 
longstanding differences and cooperatively address a common challenge 
the results can be impressive, as we saw last December when Montenegrin 
and Serbian law enforcement officials smashed a human smuggling ring. 
Twenty-two members of known criminal groups were arrested and charged 
with smuggling some 500 asylum seekers from Africa and Asia to the EU 
via Montenegro and Serbia. The smuggling route also reportedly included 
Greece, Albania, and Kosovo.

                         Trafficking in Persons

    Enhanced cross-border cooperation is also needed to better address 
trafficking in persons (TIP), another pressing problem fueled by 
corruption and organized crime. We applaud Albania's Minister of 
Interior for recently proposing to his Italian and Greek counterparts 
that a joint maritime security area be created to tackle human 
trafficking, and we urge Rome and Athens to respond affirmatively. 
Nevertheless, we are dismayed that countries in the region have not 
made greater headway in addressing this scourge. In fact, the State 
Department's annual Trafficking in Persons Report found that some 
countries are losing ground. In 2013, Albania fell from Tier 2 to the 
Tier 2 Watch List and Croatia slipped from Tier 1 to Tier 2, while all 
other countries maintained the previous year's rankings.
    All our diplomatic posts in the region are deeply committed to 
encouraging their host government to confront and eliminate 
trafficking, and they push for improved performance regardless of tier 
ranking. Last January in Macedonia, a Tier 1 Country, one of our 
political officers and his local assistants visited 15 different towns 
and cities, meeting more than 600 students, local officials, and 
concerned citizens to educate them about TIP and how they can prevent 
it. Although this effort was conducted in support of President Obama's 
proclamation of January as National Slavery and Human Trafficking 
Prevention Month, I can assure you U.S. embassies across the region 
engage in robust anti-TIP efforts year round.

                             Press Freedom

    Realizing the full democratic and economic potential of the region 
is also predicated on the existence of a free press. Although many 
countries can boast of vibrant and diverse media, limits on media 
freedom, including direct intimidation, are still a problem. Progress 
is being made, as witnessed by the January arrest of two former members 
of Serbia's security services for the murder of Slavko Curuvija, a 
courageous journalist who was killed in 1999--not long after testifying 
before this Commission--for challenging the Milosevic regime. We were 
also pleased to see Bosnia and Herzegovina, Kosovo, Serbia, and Albania 
improve their standing in the latest Reporters Without Borders World 
Press Freedom Index.
    The recent series of attacks against journalists and media outlets 
in Montenegro and the precipitous drop in Macedonia's media freedom 
ratings underscore that much more still needs to be done. Even in 
Croatia, which is fully integrated into NATO and the EU, there is 
considerable room for improvement. During the EU accession process, 
Croatia amended its constitution to include specific reference to media 
freedom and the right of access to information. However, parliament 
adopted other changes empowering itself to appoint the director general 
of Croatia Radio-Television (HRT), as well as members of the state-run 
broadcaster's program council and monitoring committee. This 
effectively gave the ruling political party control over HRT's 
broadcast content.

               Tolerating Ethnic and Religious Diversity

    Perhaps the greatest challenge governments in the region face is 
how to better promote and protect social diversity, especially the 
accommodation of ethnic and religious minorities. Given the Balkans' 
long history of inter-ethnic tensions leading to instability, we warmly 
welcome efforts such as those of the Albanian officials responsible for 
the recent opening of a Serbian-language school in the village of 
Hamil. This is but a small step; greater strides must still be made. 
Evidence of the need to do more to create an environment that fosters 
inter-ethnic tolerance is overwhelming. In January, for example, 
graffiti mocking the mass killings in Srebrenica and promoting Serb 
nationalism appeared in the town center of Pljevlja, Montenegro. There 
were bitter protests in the Croatian town of Vukovar late last year, 
sparked by the government's efforts to comply with minority protection 
laws by installing dual Latin and Cyrillic signs in areas with large 
Serb populations. A leading Croat soccer player also chanted fascist 
slogans at an international game.
    Of all the ethnic minorities facing discrimination, none is more 
vulnerable than the Roma. Living on the margins of society--often in 
abject poverty--Roma across the region routinely experience 
discrimination and violence. Serbian Roma activist and musician Olah 
Vince, for instance, was attacked by six unknown assailants as he and 
his wife were walking near their home in Novi Sad on Orthodox Christmas 
this year. Vince said he had received a series of anonymous threatening 
telephone calls and text messages that started soon after he publicly 
accused city officials of corruption and discrimination.
    Fostering social integration is the best means of preventing 
attacks such as this and other maltreatment, and our embassies in 
Belgrade and elsewhere are actively engaged in efforts to move Roma 
from the margins to the mainstream. One particularly successful effort 
has been the USAID-supported Romani youth education project in 
Macedonia, a $4.5-million initiative that has aided more than 2,500 
Roma students over the past 10 years. The project has markedly improved 
access, retention, and school performance at all levels from pre-school 
to university, and, perhaps even more importantly, had a catalytic role 
in attracting interest in the donor community and from the host 
government.
    Governments generally respect religious freedom, but they are 
frequently accused of giving preferential treatment to a favored 
religious group and selectively enforcing the legal rights of others. 
It is not uncommon for minority religious groups' property to be the 
target of theft, vandalism or desecration, as we have seen with Serbian 
Orthodox sites in Kosovo and Croatia. Restitution of religious 
properties expropriated during World War II and the communist era is 
moving forward slowly, where it is moving at all.
    Over the past year in Bosnia and Herzegovina, a number of political 
and religious leaders took positive steps to promote much-needed inter-
faith dialogue. In November, Montenegro's first provisional synagogue 
opened in Podgorica, two years after the government granted the Jewish 
community official minority status, and construction of a proper 
synagogue is expected to be completed in 2015.

                               Conclusion

    What I have laid out are just a few of the numerous challenges 
western Balkans countries face in strengthening the protection of human 
rights, opening new opportunities for growth and development, and 
building multi-ethnic democracies. The United States and its European 
partners will continue to assist these countries in any way that we can 
to implement the reforms necessary to tackle these challenges, 
particularly those impeding progress on their Euro-Atlantic paths. 
While our commitment to helping create a brighter future is unwavering, 
it should be clear to all that the ultimate responsibility for adhering 
to the path of reform and integration rests with the region's elected 
leaders, and civil societies must be prepared to hold their governments 
accountable when they stray from the path or stall along the way.
    Thank you again for the opportunity to testify before the 
Commission.
    PREPARED STATEMENT OF TANJA FAJON, MEMBER (SLOVENIA), EUROPEAN 
                               PARLIAMENT
    Honorable Chairman Mr. Cardin, distinguished members from the 
Senate and the House of Representatives, members from the Departments 
of State, Defense and Commerce, other representatives of the staff, 
guests and invitees of the Helsinki Commission...
    Good morning!
    Thank you for inviting me to a hearing of this very prominent 
Commission. I am honored to talk to you in the times that are extremely 
important for the European perspective of the Western Balkans.
    Even more so given the recent worrying developments in Ukraine 
which dominate our concerns to a great extent. It is necessary that we 
preserve peace in Ukraine and employ all our diplomatic means to 
stabilize the country, to build a united country with respect of its 
sovereignty and integrity and without further-- even deeper--ethnic 
divisions. We have to engage ourselves through the political dialogue 
and answer the demands of people.
    But at the same time, we must not lose our focus when it comes to 
engagement and interest in the developments in the Western Balkan.
    Ladies and gentlemen, this year is crucial for future developments 
in the region!
    First of all, my testimony will be based on my personal views. As 
you may already know, I have taken the leading role in the European 
Parliament in making visa liberalization for Western Balkans a reality 
and throughout my mandate I have been encouraging the governments both 
in the European Union and in the Western Balkans to engage more 
actively in pursuing the enlargement agenda.
    Secondly, I will present my views on the developments in the region 
based on my experiences gained through the work in different 
parliamentarian commissions and delegations for the Western Balkans, 
actively engaged in the democratic development and progress of the 
region. Based on its own experience, history and geography, my country 
Slovenia plays an active role in the Western Balkans, accommodating the 
challenges of the EU integration.
    Thirdly, I will outline my recommendations regarding our policy in 
the Western Balkans, particularly in the light of what should be 
expected in 2014. Challenges are enormous because of the European 
elections, on the hand, and national elections in several countries of 
the region, on the other hand. The US engagement has always been 
crucial in the past and it will remain equally important in the future. 
Without a common understanding of the situation, of the need to act in 
an appropriate, credible and unified way, without listening to the 
voices of people--as it was well illustrated in Bosnia and Herzegovina 
recently--we might jeopardize peace and stability in the entire region.
    Before going into an in-depth analysis, allow me to share with you 
my personal experience as a Rapporteur of the European Parliament for 
visa free travel for the citizens of the Western Balkans. The 
abolishment of visas has been the most tangible achievement for the 
countries of the region on their European path. It has been a great and 
historical step in bringing down the walls of bloody wars. It has 
strengthened political and economic cooperation and, what is of immense 
importance, people to people contacts. We have to do our utmost to 
preserve this freedom of travel despite some nationalistic and populist 
attacks across Europe against these recently won freedoms.
    We need to abolish visas for the last country in the Western 
Balkans which is still not under visa free regime--Kosovo--once it 
meets the necessary conditions. Needless to say, visa free travel is 
crucial for ordinary citizens! Politicians and businessmen travel 
without waiting in front of the consulates. And criminals usually don't 
apply for visas. It is about citizens and especially about young 
people! They will get to know the European values and principles only 
by getting closer to Europe.

                         Bosnia and Herzegovina

    Let me start with the country I strongly believe we have to put on 
the very top of our agenda in the Western Balkans. It is still the most 
volatile, ethnically divided country. Dayton agreement ended the war 
but it did not provide the legal structure for a functional country. 
The February demonstrations were the most serious outburst of violence 
since the war in the nineties: People calling for change, unsatisfied 
with their political elites and their personal welfare. Economic, 
political and social situation in Bosnia and Herzegovina is more than 
worrying and it urges us to act now more then ever before!
    So far, our endeavors lacked political will to make a serious 
policy shift. We need clear messages and consistent policies. We need 
an internal process, which will lead to a wide constitutional reform 
that can be accepted by the country and its people. However it cannot 
be (It must not be) externally imposed!
    The European Union has to act as a facilitator. The support of its 
international partners is hereby essential. Bosnia and Herzegovina 
needs a custom made accession approach. We must not focus only on the 
Sejdicc-Finci case; it should not block an EU application. We have 
spent countless hours trying to forge a compromise.
    We should rethink our current policy. We need to make use of the 
elections in October to develop a new, unified policy approach, with 
clear messages what kind of structural reforms Bosnia and Herzegovina 
needs to implement in order to join the EU.
    I welcome the intentions of the European Commission to focus on 
better economic governance, on fight against corruption (there is no 
doubt about political elites in the country being increasingly corrupt) 
and better implementation of EU-funded projects through the Instrument 
for Pre-Accession Assistance (IPA)--without any additional cuts! But 
this is not enough. We need to channel a social frustration in a 
positive direction--away from further ethnic divisions or state 
dissolution. So far, the demonstrations showed no interethnic tensions 
at all, but a generally tense atmosphere ahead of the elections can 
easily set the stage for violence on a much larger scale. Therefore we 
need a tailored policy for the new government after the elections in 
October that would help Bosnia and Herzegovina to present the EU 
membership application as soon as possible! Preferably this year!

                                 Serbia

    The country has taken important steps towards the normalization of 
the relations with Kosovo. The dialogue between Pristina and Belgrade 
is extremely positive for their people and it has opened the way for 
further steps in the European integration process. It is necessary that 
both sides maintain this constructive approach while working on the 
controversial and sensitive details that still need to be elaborated 
and agreed upon. There is still a need for greater transparency in 
communicating the outcomes of the dialogue and involving the 
parliaments and civil societies. The negotiators need to build better 
public trust.
    A very positive outcome of the dialogue were the elections in 
Kosovo: For the first time they included northern Kosovo and for the 
first time they were in line with democratic norms.
    Serbia started the EU accession talks in January this year and it 
is committed to continue with necessary reforms, notably in the area of 
the judiciary, fight against corruption, and the reform of the public 
sector.
    There will be early elections on the 16th of March. But most likely 
the present coalition will remain in power. (Best case scenario for 
2014: to close chapters 23 & 24 and open 32 and then 35 (the one on 
Kosovo).
    Given the progress it achieved in the recent past, Serbia has 
become an important player in the region in supporting and promoting 
EU-values.

                                 Kosovo

    Because of the normalization of the relations with Serbia the EU 
launched negotiations for a Stabilization and Association Agreement 
with Kosovo. Hopefully the Agreement will be signed this year although 
the authorities need to make further efforts to meet the challenges of 
the European Reform Agenda. It is expected that Kosovo will hold early 
elections in June.
    In the European Parliament we have encouraged in the January 
resolution the remaining five EU Member States to proceed with the 
recognition of Kosovo and we have called on all EU Member States to do 
their utmost to facilitate economic and people to people contacts as 
well as social and political relations between their citizens and 
citizens of Kosovo.I visited Pristina two weeks ago and held a press 
conference in Brussels a day before yesterday. I re-
emphasized the importance of the visa free travel for the people of 
Kosovo. There will be an expert mission in Kosovo next week, evaluating 
its readiness. I expect that the European Commission will publish its 
report without further delay.

                               Macedonia

    Unfortunately, there is not much to say. The EU has decided for the 
fifth year not to open the accession negotiations with the country in 
spite of the positive recommendation of the Commission and the European 
Parliament in this respect. There is growing frustration about the EU 
in the public opinion.
    I strongly support the idea that the bilateral issues between 
Macedonia and Greece should be resolved before the end of the accession 
process but they should not present an obstacle to the opening of the 
negotiations. A further delay poses a considerable risk to the regional 
stability. I hope that Greece will use its EU-
Presidency to create a positive environment.
    But still: it takes two to tango and it seems that no side is 
capable and ready to develop new initiatives to overcome the current 
stalemate on the name issue. There will be the presidential elections 
in the country, and it's difficult to believe that there will be a good 
atmosphere to find a solution.

                               Montenegro

    Montenegro seems to have least problems among the Western Balkans 
countries. It still shows broad enthusiasm for entering the European 
Union. Two chapters in the negotiations have been (provisionally) 
closed, fight against corruption and organized crime and judicial 
reform remain top priorities.
    Nevertheless, I want to use this opportunity to once again express 
my deep shock and concern about at least two bomb attacks and around 
half a dozen physical attacks against journalists in the recent past. I 
have called the responsible authorities in the country several times to 
protect journalists and adequately investigate and prosecute all these 
attacks and threats.

                                Albania

    Albania has a new government after the June Parliamentary elections 
and it has improved its reputation significantly after the orderly 
conducted and peaceful transfer of power.
    This new government has an ambitious European agenda and 
significant progress has already been made in the first 100 days of its 
functioning. Therefore I do expect that the EU Council in June will 
grant Albania a candidate status.
    It is also true that the political climate in the country must be 
improved. But delaying the granting of candidate status would mean to 
risk the momentum for further progress and democratic development of 
the country. We must not forget that the country has been the most 
isolated country of the Western Balkans in the past. There still exists 
blood revenge today. Two main parties run the country and corruption is 
a serious problem.
    We need to support the country and its current government on its 
European path. It is important, especially for Albanian youth, which is 
ambitious, well-educated and open minded, as well as willing to push 
for further EU integration.
    Ladies and gentlemen: Let me conclude with a few final remarks:
    1. Despite the economic and social crisis in Europe, the 
enlargement of the EU towards the Western Balkans countries must remain 
a priority. The political situation in the region is still very 
fragile. In particular Bosnia and Herzegovina show worrying signs of 
instability! Peace and stability of the region is our strategic 
interest.
    2. With the support of the USA and its international partners the 
EU must lead a unified, comprehensive policy approach towards the 
Western Balkans; we must be capable to shift our policy approach when 
needed.
    3. The economic crisis has hit the Western Balkans very hard. 
Europe and the USA should seek opportunities for more investments in 
the Western Balkans.
    4. EU institutions and EU governments need to make use of this 
year--the year of European elections--to fight nationalism and 
extremism in the region; otherwise it will jeopardize the European 
integration process.
    5. Credible EU policy towards the Western Balkans demands in-depth 
understanding of the history of these countries, different political 
and economic situations, involvement of local authorities, NGO's, 
experts and the civil society.
    6. Brdo Process, launched by Slovenia and Croatia, has the 
potential to become a strong engine of political and overall 
development in the region. The July Summit of Brdo Process with French 
Prime Minister Hollande was a historical event for the region, which 
set the fundaments for a fruitful common initiative and a successful 
story of the region. The next summit of Brdo process will take place in 
Croatia in July with Chancellor Merkel already confirmed the 
participation.
  PREPARED STATEMENT OF AMB. KURT VOLKER, EXECUTIVE DIRECTOR, McCAIN 
                 INSTITUTE FOR INTERNATIONAL LEADERSHIP

                  The Situation in the Western Balkans

    Thank you Chairman Cardin, Co-Chairman Smith, and all the 
distinguished Members here today, for the opportunity to testify about 
the Balkans region.
    As you know, I had the privilege of serving as US Ambassador to 
NATO in 2008-2009, and served in several other senior positions at the 
State Department, the National Security Council, and the office of the 
NATO Secretary General. I worked on issues dealing directly with the 
Balkans region at several points in my career, and have continued to 
remain engaged in my post-government career.
    The starting point for any discussion of the Balkans today begins 
not with Sarajevo, or Pristina, but with Crimea.
    What is happening in Ukraine today--with Russia deploying military 
forces to occupy Crimea--represents the most serious challenge to 
freedom, democracy, and security in Europe since the end of the Cold 
War.
    For 25 years, we have worked to support the rights of people 
throughout Central and Eastern Europe, as they sought to build free, 
prosperous, stable, and secure societies. The results have been nothing 
short of remarkable. A dozen countries, representing over 100 million 
people, have built modern, democratic societies and long-term security 
for the future, after a horrific past. To be sure, there have been and 
remain challenges within this transformation, but the major trend-line 
is clear.
    Russia's 2008 invasion of Georgia was a bellwether. Borders in 
Europe were changed by force of invasion by a neighboring country. 
Russia's occupation of parts of Georgia and Moldova is a continuing 
grave concern.
    But the insertion of Russian forces into Ukraine in the past week 
in order to take over Crimea and challenge authorities in Kiev should 
be a wake-up call for all of us. The post-cold-war order of people 
having the right to choose their own government and political 
orientation democratically, the inviolability of borders, and the 
rejection of the notion that military force can be used to dominate 
neighbors are all under threat.
    A strong U.S. and European response--to support the rights of all 
Ukrainians to determine their own future, and to support the principles 
of the post-cold-war peace in Europe--is absolutely essential.
    There is no excuse for the excesses of the Yanukovych government in 
Ukraine. Yet at the same time, a contributing factor to the situation 
in Ukraine today was a relatively disengaged, complacent attitude in 
Europe and the United States. By failing to continue to press forward 
with the development of a Europe whole, free and at peace, working 
actively with those Ukrainians seeking to implement reforms and build a 
better society, we helped create a vacuum filled by the worst elements 
of Ukrainian politics, and now by Russia.
    That same attitude of minimal engagement, complacency, and lack of 
commitment to creating a Europe whole, free, and at peace, for all the 
peoples of Europe, is how I would characterize policy toward the 
western Balkans over the past several years. As in Ukraine, in the 
Western Balkans we have seen darker elements fill the void. And as in 
Ukraine, the risks of more catastrophic failure are real, despite the 
genuine progress that has been made.
    The reasons for such a minimalist Western approach to the Balkans 
are perfectly understandable. The need to tackle more pressing 
challenges in Iraq, Afghanistan, or the Middle East. The financial 
crisis. The Euro-zone debt crisis. Recession. Public fatigue with 
difficult foreign engagements. Perceptions, however dubious, that EU 
enlargement has led to mass immigration, loss of jobs, and diminished 
prosperity in Western Europe.
    It is easy, in this context, to justify a minimalist engagement, 
and to point a finger at leaders in the Western Balkans themselves for 
failing to strengthen their own societies better. But as Ukraine now 
reminds us, we in the democratic, prosperous, and secure part of the 
transatlantic community have a clear responsibility as well.
    Despite our own difficulties, we must recognize that the costs of 
reversing the progress already made are far greater than the costs of a 
proactive, affirmative policy of promoting democratic development and 
completing a Europe whole, free and at peace.
    In this context, let me offer the following policy observations and 
suggestions:
    <bullet>  There has been no forward movement on NATO enlargement 
since the Bucharest Summit of 2008, when Croatia and Albania were 
invited to join NATO. Montenegro still has work to do in key areas--but 
so did other nations when they were invited to join NATO. Especially in 
the current context, it is important symbolically to renew momentum in 
the Balkans, by offering NATO membership for Montenegro at the 2014 
Summit in Wales, in exchange for completion of a few remaining reforms.
    <bullet>  Likewise, it is time to press for a settlement on the 
name issue and an invitation for Macedonia to join NATO as well. 
Macedonia should be a vibrant crossroads of the Balkans--linking Greece 
to the north and linking the Western Balkans to Greece and the 
Mediterranean. The current stalemate on this issue serves no one's 
interests. It harms Greek economic interests by retarding development 
in the Balkans more generally. It prevents Macedonia from taking a 
proper place in European and transatlantic institutions. And it creates 
a political limbo in which ethnic rivalries in the Western Balkans 
could again resurface--which again would damage Greek interests as much 
as anyone else's.
          I believe there is a framework for a settlement that can be 
        seen as a win-win for both Greece and Macedonia. I suspect both 
        sides know this, and are ready to reach such an agreement. But 
        context is important. The United States and key European allies 
        should play an active role in seeking such a genuine agreement, 
        providing support and guarantees as needed, and on that basis 
        proceed with an invitation for Macedonia to join NATO at the 
        2014 Summit.
    <bullet>  Developments in Bosnia continue to be held back by the 
dysfunctional governing arrangements put in place by the Dayton 
Accords. Essential to end a war nearly two decades ago, those 
arrangements are now preventing Bosnia from moving forward. They 
reinforce ethnic divisions, rather than overcome them. They establish 
political structures that promote deadlock. And they reward politicians 
with narrow ethnic agendas, rather than inclusive, national, 
developmental goals. It is long past time to open a ``Dayton Two'' 
negotiation on new government arrangements. Such arrangements can only 
be agreed by Bosnians themselves--but they can only do so in the 
context of a wider, transatlantic framework led by the United States 
and European Union.
    <bullet>  The progress in relations between Belgrade and Pristina 
is the main bright spot in the region over recent years. We should 
commend both governments, as well as the European Union High 
Representative, Catherine Ashton, for their work in this area. In this 
case, it is probably not possible to press for more of a permanent 
solution at this time, but we should continue to press forward with 
concrete, practical steps, in the context of a wider region that is 
settling old issues and moving toward full transatlantic integration.
          I would add one final word about democracy and reform: NATO 
        and EU membership is not an end-point in itself, but an 
        extremely powerful tool for building good societies--societies 
        that respect the human rights of all citizens, respect 
        minorities, treat political opposition fairly, promote market-
        driven economic growth, contribute to greater security and 
        stability in the Euro-Atlantic area as a whole.
          There are plenty of examples in countries that have already 
        joined one or both institutions, where democracy, and 
        democratic institutions, should be strengthened. This fact 
        should not lead to a conclusion that including those countries 
        in NATO or the EU--even long established NATO and EU members 
        have their own challenges--and neither should it be used to 
        raise the bar or prevent others from joining NATO or the EU.
          Especially in the context of Ukraine today, we should 
        remember that it is far easier to deal with these challenges 
        proactively, and within the institutional frameworks we have 
        created. We should not wait, and risk darker forces rising to 
        fill the vacuum.
    Europe has made extraordinary progress since the world wars of the 
last century. But millions of people in Europe's South and East, 
including in Russia, are still not living in free, prosperous, secure 
stable societies. Europe remains divided--though in different ways and 
across different lines than in the past.
    The success of Europe will never be complete, and never 100 percent 
secure, until all of Europe shares in the dream of a Europe whole, free 
and at peace. American and European leaders need to keep to keep that 
vision on the front burner, and continue working toward it. And America 
should play a key leadership role in that effort, alongside Europe, as 
it has for the past 60-plus years.
    Thank you Mr. Chairman, and Mr. Co-Chairman, for the opportunity to 
raise these views before this Committee.

                                 <all>


                                     

  

This is an official publication of the

Commission on Security and

Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document

developments and trends in participating

States of the Organization for Security

and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely

reproduced, in any form, with appropriate

credit. The Commission encourages

the widest possible dissemination

of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov

The Commission's Web site provides

access to the latest press releases

and reports, as well as hearings and

briefings. Using the Commission's electronic

subscription service, readers are able

to receive press releases, articles,

and other materials by topic or countries

of particular interest.

Please subscribe today.
</pre></body></html>
